<html>
<title> - ENSURING OPERABILITY DURING CATASTROPHIC EVENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
            ENSURING OPERABILITY DURING CATASTROPHIC EVENTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       PREPAREDNESS, SCIENCE, AND
                               TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2005

                               __________

                           Serial No. 109-49

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
34-529                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bob Etheridge, North Carolina
                                     Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology..............     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    45
The Honoprable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    40
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    42
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    34
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    46

                               Witnesses
                                Panel I

The Honorable Mark Rey, Under Secretary, Natural resources and 
  Environment, U.S. Department of Agriculture:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Dr. David Boyd, Director, SAFECOM, Office of Interoperability and 
  Communications, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement for the Record..............................    12
Dr. Peter Fonash, Deputy Manager, National Communications System, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Ken Moran, Director, Office of Homeland Security, Enforcement 
  Bureau, Federal Communications Commission:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Dr. Linton Wells, II, Acting Assistant Secretary, Networks and 
  Information, Integration and Chief Information Officer, U.S. 
  Department of Defense
  Oral Statement.................................................    29
  Prepated Statement.............................................    31


            ENSURING OPERABILITY DURING CATASTROPHIC EVENTS

                              ----------                              


                      Wednesday, October 26, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:42 a.m., in 
Room 311, Cannon House Office Building, Hon. David Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Rogers, Harris, McCaul, 
Dent, Pascrell, Sanchez, Dicks, Harman, Lowey, Christensen, and 
Thompson (Ex Officio).
    Mr. Reichert. The Committee on Homeland Security, 
Subcommittee on Emergency Preparedness Science and Technology 
will come to order. The subcommittee will hear testimony today 
on ensuring operable communications during catastrophic events. 
I would first like to welcome our witnesses and thank them for 
taking time out of their busy schedules to be here with us 
today.
    We are here today to discuss a topic that is fundamental in 
preparing our State and local communities to respond to a major 
disaster or terrorist attack. The purpose of this hearing is to 
examine the problem of responding effectively and efficiently 
to catastrophic incidents when the everyday communication 
infrastructure is severely damaged or destroyed. I would like 
to welcome our witnesses once again who are joining us today, 
and each of you bring a wealth of knowledge and I look forward 
to hearing from each of you on how the government can insure 
operability during a catastrophic event. The ability to 
communicate is absolutely essential to mounting a well-
coordinated response to any catastrophic event.
    First responders, Federal State and local officials cannot 
establish meaningful command and control in the absence of 
functioning communications system. Last month we heard 
testimony on incident command and control. We learned that 
communication is absolutely critical to having a unified 
approach to respond to a catastrophic event.
    In the absence of communication and effective planning, 
incident command and control is severely hindered. An incident 
commander may have difficulty in establishing situational 
awareness. The operations chief must be able to issue 
instructions to first responders in the field to direct 
resources and personnel to areas of most need. Without the 
ability to call for help, citizens cannot reliably seek medical 
or other emergency assistance, as demonstrated by Hurricane 
Katrina command and control directly depends upon the ability 
of all levels of government to communicate effectively with one 
another.
    Since the events of September 11th of 2001, many in the 
media and Congress have focused rightly on a problem of 
interoperability. Simply stated, interoperability is the 
ability of the public safety agencies to communicate with one 
another via radio communications systems to exchange voice and/
or data with one another on demand in real-time when needed. 
Until September 11, however, many people just assumed that 
first responders from different disciplines could easily 
communicate with one another. Unfortunately, that was not the 
case. The inability of the New York City police, fire and 
emergency medical services personnel to communicate with one 
another effectively undoubtedly led to the loss of lives in the 
World Trade Center.
    Four years later, the inadequate response to Hurricane 
Katrina has highlighted a separate but equally fundamental 
problem. Before first responder equipment can be interoperable, 
their equipment must first be operable. Interoperability 
presumes the existence of an operable communications network. 
As we saw in the aftermath of Hurricane Katrina, there can be 
no guarantee of communication. Communications operability in 
the aftermath of a catastrophic natural disaster. Hurricane 
Katrina destroyed more than 3 million customer telephone lines 
in Louisiana, Mississippi and Alabama. The region's wire line 
network sustained enormous damage. A thousand cell sites were 
completely out of service.
    Of the 41 broadcast radio stations located in New Orleans 
and the surrounding areas, only two AM radio stations and two 
FM radio stations remained on the air in the wake of the 
hurricane. As a consequence, first responders had no choice but 
to rely on the old fashioned paper relays to communicate 
critical information between emergency operation centers and 
the field. And on a personal note, I know that communication is 
one of, if not the most important aspect in handling and 
controlling stressful and high impact critical incidents. Back 
in 1999 I was deeply involved as one of the leaders in managing 
the WTO riots in Seattle as the sheriff in King County.
    And I know if we didn't have the ability to communicate 
with the various agencies, multitude of agencies who were 
partners in that effort to bring peace and control back to the 
city of Seattle, we would have been in serious trouble. I 
believe it is critical that we have coordination between the 
Department of Homeland Security, other Federal departments and 
State and local officials, to assume operability during a 
catastrophic event. The Chair now recognizes the ranking 
minority member of the subcommittee, the gentleman from New 
Jersey, Mr. Pascrell for any statement he may have.
    Mr. Pascrell. Mr. Chairman, I want to thank you for holding 
a timely hearing on an issue of profound importance, an issue 
that this committee and its full committee has discussed time 
and time again. Indeed, ensuring communications operability 
during a catastrophic event can result in the significant 
reduction of lives lost. For this fact alone, the Congress and 
this committee must do everything in our power to ensure that 
the operational elements of communications systems throughout 
our Nation's infrastructure can withstand an onslaught of a 
disastrous incident.
    And as we have seen, Hurricane Katrina and Rita highlighted 
how this currently is not the case. Coordination of initial 
rescue efforts in the days immediately following the landfall 
of Hurricane Katrina were severely frustrated by the inability 
to communicate. The hurricane knocked out, and as this chairman 
has pointed out very succinctly, more than 3 million customer 
phone lines in Louisiana, Mississippi and Alabama. The hard 
wire telecommunications network sustained enormous damage, both 
to the switching centers that route calls and to the lines used 
to connect buildings and customers to the network. Now, 
according to the FCC, of the 41 broadcast radio stations, I 
want to reiterate this. It is very important to everybody on 
this committee. The ones that were located in New Orleans and 
the surrounding area, of all of those, only two AM and two FM 
stations remained on the air in the wake of the hurricane.
    In a number of cases, reporters were actually asked to 
brief public officials on the conditions in the areas where 
information was not reaching them in any other way, which 
brings me to a subject that I talked about long before and the 
members of this committee long before there was a committee 
talked about, and that is what is the role of the FCC in all of 
this. What is the role of the FCC? Well, let's take a look at 
the national response plan which very clearly states in chapter 
and verse that providing on-call support to identify sources of 
radio frequency interference and to resolve civil frequency 
interference issues and frequency assignment requests that is 
the role, one of the roles of the FCC.
    And it goes on to talk about the national communication 
system. This is all in the national response plan, all things 
that this committee, before it was a committee, when it was a 
select committee, discussed time and time again. The extension, 
the discontinuance and reduction of common carrier facilities, 
the control of common carrier rates, charges, practices, 
classifications. And I would say, before I go on with my 
opening statement, that before 9/11, the FCC did not do, did 
not respond to its own responsibilities with regard to 
providing the first responders of this country with the 
necessary networking, the necessary bands so that they could 
communicate with one another.
    And since--past administration, this administration, didn't 
matter. And we have left our first responders out to dry. And 
somebody's got to be held accountable. Someone has to be held 
accountable. Now we are more interested in how many swear words 
are on radio and television, and more interested in how we can 
get conglomerates to get larger than we are at helping our 
first responders. This is our legacy right now. The New Orleans 
Police Dispatch Center and the New Orleans Fire Dispatch Center 
were flooded and had been evacuated already. 911 was totally 
inaccessible. The majority of public safety communications were 
simply not functioning.
    Clearly, the absence of a reliable network across which 
first responders and State and local officials could coordinate 
severely impeded any response to this catastrophic event. We 
need to know how to ensure that a failure of this magnitude 
does not happen again. After any major test of our response 
system, it is crucial to assess what worked and what did not 
work. The backbone of our Federal response is the national 
incident management system and the national response plan. 
These two documents must work in tandem.
    In light of the Federal response to the Hurricanes Katrina 
and Rita, I believe that both documents must be reevaluated to 
improve the response and coordination for major disasters. Do 
the NRP and do--and is the NIMS, have they taken into account 
that possibility that during a disaster there may be an 
inability to communicate? Do State and local officials 
understand their roles within the national response plan and 
the NIMS? The answer to both appears to be no. And this must be 
improved. We know that communications is a DHS responsibility. 
We voted on this. Emergency support function number two of the 
national response plan gives the information analysis and 
infrastructure protection directorate the leading coordinating 
Federal actions to provide the required temporary emergency 
telecommunications and the restoration of the 
telecommunications infrastructure.
    Again, another point Mr. Chairman. We had 7 days to prepare 
for these storms. We will not have seven seconds to prepare for 
a terrorist attack. What exactly is DHS doing to prepare for 
catastrophic events that wipe out communication systems? What 
have they done already?
    And Federal agencies, such as the Department of Defense, 
the U.S. Forest Service, have hands-on experience in 
establishing communication in areas where they do not exist. 
What has DHS done to reach out to these agencies to assist them 
during catastrophic events? Are we at the right level of 
funding? Do we have the appropriate standards? Do we know the 
technological needs to adequately provide communications 
support to the State and local government agencies before, 
during and after a catastrophic event? So I look forward to the 
hearing, Mr. Chairman, and thank you for your due diligence.
    Mr. Reichert. Thank you, Mr. Pascrell. The Chair now 
recognizes the ranking minority member of the full committee, 
the gentleman from Mississippi, Mr. Thompson, for any statement 
that he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I look 
forward to the testimony of our witnesses here this morning. In 
the past 2 months, Hurricanes Katrina, Rita and Wilma have 
devastated much of the gulf coast. I have spoken to local 
officials, mayors, firefighters and police officers throughout 
the gulf coast, and have heard uniformly about the inability to 
communicate between levels of government and first responder 
disciplines. While some progress has been made since the 
attacks on September 11, these hurricanes once again have 
revealed severe problems in our public safety communications 
infrastructure.
    Many first responders still cannot talk with one another 
because their radios and communications network are not 
compatible. In many cases, the lack of proper equipment or the 
lack of radio spectrum are the root causes of the problem. 
Congress must act quickly to address these issues. However, 
compounding the problem in catastrophic events is the partial 
or total destruction of the communications infrastructure. 
During Katrina, cell and radio towers, 911 call centers and all 
switching centers were all damaged as a result of the wind and 
flooding and the subsequent loss of power. This was not an 
issue of interoperability, but of basic operability resulting 
from the damage. In the future, DHS and FEMA must not only 
increase its own communications capacity, but must give more 
assistance to local and State officials to get their 
capabilities back on-line.
    As a former volunteer firefighter and local official, I 
know that the ability to communicate is essential in 
establishing command and control of an emergency situation. The 
Federal Government has the ability, assets and responsibility 
to help State and local governments achieve operability when 
the local infrastructure is overwhelmed. I look forward to the 
hearing from the witnesses today on how their agencies are 
looking at ways to coordinate with each other and adopt 
military and private sector communication technology for use in 
these catastrophic situations and how these efforts will 
benefit local first responders. Thank you, Mr. Chairman and I 
yield back
    Mr. Reichert. Thank you, Mr. Thompson. Other members of the 
committee are reminded that opening statements may be submitted 
for the record. We are pleased to have a distinguished panel of 
witnesses with us here today. We have the Honorable Mark Rey, 
Undersecretary of Natural Resources and Environment, the U.S. 
Department of Agriculture,; Dr. David Boyd, Director of Office 
of Interoperability and Communication, U.S. Department of 
Homeland Security; Dr. Peter Fonash, deputy manager, National 
Communications System, U.S. Department of Homeland Security; 
Mr. Kenneth Moran, director, Office of Homeland Security 
Enforcement Bureau, Federal Communications Commission; and Dr. 
Linton Wells, II, Acting Assistant Secretary, Networks and 
Information Integration and chief information officer, U.S. 
Department of Defense.
    Let me remind the witnesses, please, that their entire 
written statement will appear in the record. And we ask that 
due to the number of witnesses on our panel today that you 
strive to limit your comments and testimony to no more than 5 
minutes. The Chair now recognizes the Honorable Mark Rey, Under 
Secretary for Natural Resources and Environment for the United 
States Department of Agriculture to testify.

                   STATEMENT OF HON. MARK REY

    Mr. Rey. Thank you for inviting me to talk with you today 
about the forest service and interagency partners experience 
with the incident command system and communications during 
emergency response. The Forest Service, the Department of the 
Interior agencies and our partners operate the largest wildland 
fire management program in the world. These agencies and 
partners pioneered the use of the incident command system as a 
component of the natural interagency incident management system 
in the early 1970s in order to respond to wild fires. Wild land 
firefighters realized that a standard organizational structure 
would help to communicate, set priorities and be more effective 
in a rapidly changing situation. The incident command system 
provides common terminology for position titles, resources and 
facilities, common responsibilities for each position, common 
planning, common communications, common locations and common 
incident objectives. For large multi jurisdictional incidents, 
a unified command system is used.
    The ability of the Forest Service and its partners to 
respond with trained and experienced personnel is based upon 
the interagency incident qualifications and certifications. The 
incident qualification and certification system is described in 
greater detail in my testimony. The Department of Homeland 
Security directed the use of the incident command system as 
part of the national incident management system in 2004 to 
organize incident management for all agencies on a nationwide 
basis. An example of the adaptability of the incident command 
system after September 11, 2001 is that the Forest Service 
trained the Fire Department of New York City in the incident 
command system.
    In response to Hurricane Katrina, the Fire Department of 
New York incident management team assisted the New Orleans Fire 
Department initially in fire protection and then in the 
inspection of buildings and reopening fire stations in New 
Orleans. With regard to communications, effective 
communications are critical in all emergency responses. When 
the concept of the incident command system was developed, three 
components were identified involving communications. First, 
common terminology, including clear text; second, a 
communications plan to provide information to responders via 
radio; and third, an incident management plan to provide common 
written descriptions.
    Over the past 30 years, these components have proven 
essential during the response to wild fires and other 
emergencies. Wildland firefighting agencies reduce the 
potential for radio frequency incompatibility problems by 
planning and providing communications systems during 
emergencies. The radio cache located at the National 
Interagency Fire Center is the largest civilian cache of radios 
in the United States. Fully half of those radios were devoted 
to the response to Hurricanes Katrina and Rita. I would like to 
say a few words about the Forest Service's involvement in the 
two incidents.
    Forest Service response efforts covered the entire spectrum 
of the disaster. The Forest Service was tasked with more than 
50 missions since requests for assistance from FEMA began 
shortly before Hurricane Katrina struck. Our interagency 
support peaked on October 1 with 29 incident management teams 
that used the incident command system in the management of 
their operations. Approximately 5,500 people, including 139 
crews, all qualified in the incident command system were 
assigned.
    In addition, 2,700 pieces of equipment and 20 helicopters 
and fixed wing aircraft were mobilized as well. In the days 
after Hurricane Katrina, interagency management teams managed 
all agency radio phone data communications, coordinated the 
receiving and distribution of trailers for housing and 
thousands of truckloads of supplies, provided evacuees with 
food, clothing and shelter and supported emergency medical 
operations at the New Orleans Airport. Interagency incident 
management teams managed evacuation centers in Phoenix, Houston 
and San Antonio. Teams were providing base camp operations and 
support to emergency responders in 14 locations in Mississippi, 
Louisiana and Texas. Camp operations including feeding, 
building, showers and laundry for emergency personnel, disaster 
and mortuary operations have also been supported by incident 
management teams.
    Additionally, 17 interagency buying teams have been an 
integral part of the hurricane response effort. These teams 
have purchased food, portable toilets, fuel safety gear, 
medical supplies or leased land building or equipment as needed 
to support the relief effort. Mr. Chairman, the Forest Service 
and its 100-year history has responded to many emergencies and 
incidents ranging from major fires to hurricanes. All of these 
have tested the agencies and its partners management skills and 
abilities. The systems that have been developed and tested over 
and over again have proven useful and adaptable. Thank you very 
much for the opportunity to testify today.
    Mr. Reichert. Thank you, Under Secretary Rey.
    [The statement of Mr. Rey follows:]

                     Prepared Statement of Mark Rey

    Mr. Chairman and members of the Subcommittee, Thank you for 
inviting me to talk with you today about the Forest Service and its 
interagency partners experience with the Incident Command System and 
communications during emergency response. I understand the Subcommittee 
is familiar with the Incident Command System so I would like to 
describe how the Forest Service and its partners use the Incident 
Command System and related systems developed over the years to respond 
to wildland fires and also to all-hazard incidents.

Incident Command System
    The Forest Service, the Department of the Interior agencies, and 
our partners operate the largest wildland fire management program in 
the world. These agencies and partners pioneered the use of the 
Incident Command System (ICS), as a component of the National 
Interagency Incident Management System (NIIMS) in the 1970s, in order 
to respond to wildland fires. Wildland firefighters realized that a 
standard organizational structure would help them communicate, set 
priorities, and be more effective in a rapidly changing situation. 
Emergency and crisis events are often chaotic and highly dynamic; they 
create physical, emotional, and social disruption. The Incident Command 
System provides common terminology for position titles, resources, and 
facilities; common responsibilities for each position, common planning, 
common communications, common locations, and common incident objectives 
to unify the Forest Service, Department of the Interior agencies, 
Tribal, State, and local organizations to fight a fire or respond to 
other types of emergency situations.
    During fire season, critical firefighting needs are coordinated 
through the National Interagency Coordination Center, located at the 
National Interagency Fire Center in Boise, Idaho. If fire-fighting 
resources are strained as a result of multiple simultaneous fires, 
resources are prioritized and allocated by the National Multi-Agency 
Coordinating Group. These efforts ensure assets are appropriately 
prioritized, allocated, and can be positioned based on the most up-to-
date information.
    Interagency Incident Management Teams dispatched to incidents are 
comprised of emergency response professionals from Federal, Tribal, 
State, and local wildland fire organizations. These teams are able to 
use their logistical, organizational, and adaptation skills to rapidly 
deploy people and resources from many areas and respond to a wide 
variety of tasks needed during emergencies. For large multi-
jurisdictional incidents, a unified command is used. In many cases, the 
use of unified command is the most efficient means to facilitate 
communications with all first responders. By having a representative of 
each jurisdiction at the incident command post, managers can share 
incident information down to each of their respective responders.
    The ability of the Forest Service, the Department of the Interior 
agencies, and their partners to respond with trained and experienced 
personnel is based upon the interagency incident qualifications and 
certifications. These were developed in conjunction with the Incident 
Command System and are overseen by a group of fire directors for all 
five federal land management agencies and representatives of States 
that have wildfire suppression responsibilities. The system documents 
all training, experience, certifications, authorities, licenses, 
minimum qualifications, and physical fitness standards for about 28,000 
permanent and temporary employees of the Forest Service. The automated 
part of this system is known as the Incident Qualification and 
Certification System (IQCS). IQCS stores data, prints reports and 
qualifications cards, and provides data to other systems.
    IQCS is tied to the Resource Ordering and Status System (ROSS); 
qualified personnel can be quickly identified and dispatched to an 
incident. ROSS is used by more than 400 dispatch offices serving 
numerous Federal, State, County and municipal agencies. ROSS assists 
dispatchers and coordinators with information on the availability and 
location of crews, management personnel, equipment, aircraft, supplies, 
and services. Resources can be requested, mobilized, and tracked to and 
from the incident. In addition, allocation of resources at a regional 
or national level can be accomplished. ROSS, along with interagency 
dispatch and coordination, allows managers to identify and mobilize 
resources from around the country to the incident within 12 to 24 
hours. At the incident, Incident Management Teams use ROSS data to 
support resource status tracking, cost reporting, and planning efforts.
    Forest Service units across the nation have had emergency 
operations plans for many years. They also developed interagency 
operating plans describing how the unit and its other Federal, Tribal, 
State, and local cooperators will work together during an emergency 
incident. A key component to emergency operations plans is 
communications. These plans include items such as which radio 
frequencies are going to be used, the sharing of radio equipment, and 
standardized formats for information flow from the incidents. All of 
this planning is to improve communications and effective incident 
management.
    In his Directive on Management of Domestic Incidents (HSDP-5), 
President Bush instructed the Secretary of Homeland Security to develop 
a National Incident Management System that is closely modeled on the 
wildland fire system, including the use of the Incident Command System. 
In 2004, the Department of Homeland Security issued the National 
Incident Management System (NIMS). Under the terms of HSPD-5, all 
Federal Departments and agencies will use the NIMS in their domestic 
incident management activities, as well as those actions taken in 
support of State or local entities. In addition, state and local 
entities are to adopt the NIMS a requirement for receiving Federal 
preparedness assistance through grants, contracts, or other activities. 
I would like to give you an example of the adaptability of the Incident 
Command System. After September 11, 2001, the Forest Service trained 
the Fire Department of New York City in the Incident Command System. In 
response to Hurricane Katrina, the Fire Department of New York Incident 
Management Team assisted the New Orleans Fire Department initially in 
fire protection and then in the inspection of buildings and reopening 
fire stations in New Orleans. Incident Management Teams are managing or 
managed the base camps in Jackson Square and Holy Cross and are 
providing the New Orleans Fire Department preliminary training in the 
Incident Command System.

Communications
    Effective communications are critical in all emergency responses. 
When the concept of the Incident Command System was developed, three 
components were identified involving communications: 1) common 
terminology including clear text; 2) a communication plan to provide 
information to responders via radio; and, 3) an incident management 
plan to provide common written direction. Over the past 30 years, these 
components have proven essential during the response to wildfires and 
other emergencies. The result is improved communications within the 
emergency response community.
    In an emergency, all forms of communications must be well organized 
and coordinated. As the Forest Service prepares each year for the 
upcoming fire season, many units agree to mutual aid frequencies and 
protocols with their interagency cooperators. Wildland fire agencies 
reduce the potential for radio frequency and compatibility problems by 
planning and providing communications systems during emergencies. The 
radio cache located at the National Interagency Fire Center is the 
largest civilian cache--over 5000--of radios in the United States. 
Radios are dispatched in kits including repeaters, hand held radios, 
and necessary antennas to set-up communication systems. These systems 
allow responders to be given radios and assigned frequencies which are 
sometimes added for unique situations. Every Incident Management Team 
mobilized by wildland fire agencies has access to these systems. This 
was done after September 11, 2001 when the National Interagency Fire 
Center communications personnel were dispatched to New York City within 
12 hours to set up the necessary communication links so critical in an 
emergency.
    A vital link to success for the National Incident Management System 
(NIMS) is communication interoperability at a level appropriate to the 
requirements of each circumstance. Radio frequency and equipment 
compatibility issues among Federal, Tribal, State, and local emergency 
responders, as well as the Department of Defense, National Guard, and 
Reserves have been noted in past incident response evaluations. One 
example is the California Governor's Blue Ribbon Fire Commission report 
which found communications to be a major problem during the fires in 
Southern California in October 2003. The Commission's Finding #1 states 
``Communications interoperability is essential in the effective command 
and control of personnel and resources during multi-agency, 
multidiscipline responses to major incidents.''
    Local agencies often operate on different bandwidths than do 
Federal, Tribal, State and other local agencies. During joint 
responses, communications protocols must be pre-planned to ensure a 
positive communications capability is in place. Congress mandated a 
restructuring of the Federal Radio Frequency Spectrum requiring Federal 
Agencies to transition to narrowband FM frequencies by January 1, 2005. 
Each wildland fire agency is currently planning, executing, and funding 
the transition. State, local, Tribal, and cooperating agencies are not 
required to transition until 2013, although many have implemented or 
started the transition process.

Hurricanes Katrina and Rita
    I would like to say a few words regarding the Forest Service 
involvement following two major hurricanes: Category 4 Hurricane 
Katrina, which made landfall on the Gulf coast of Louisiana, 
Mississippi, Alabama, and the Florida Panhandle on August 29, and 
Category 3 Hurricane Rita which made landfall on the southwest coast of 
Louisiana and northeast coast of Texas on September 24, 2005. Forest 
Service response efforts really cover the entire spectrum of the 
disaster. The ability of the Forest Service and its partners to respond 
is based upon years of experience in the use of the Incident Command 
System, IQCS, ROSS, and communications during wildfires.
    The Forest Service is the primary agency for the Emergency Support 
Function #4--firefighting--and is also a support agency to 11 of the 15 
Emergency Support Functions in the National Response Plan. The Forest 
Service has been tasked with more than 50 missions since requests for 
assistance from FEMA began shortly before Hurricane Katrina struck. The 
National Interagency Fire Center and the Geographical Area Coordination 
Center in Atlanta, Georgia managed the mobilization of crews and 
interagency Incident Management Teams from across the country and 
assigned those teams to missions along the Gulf Coast.
    Interagency support peaked October 1 with 29 Incident Management 
Teams that used the Incident Command System in the management of their 
operations. Approximately 5,500 people including 139 crews, and 1,300 
management and support personnel, all qualified in the IQCS system were 
assigned. In addition, 2,700 pieces of equipment and 20 helicopters and 
fixed winged aircraft were mobilized and tracked through ROSS.
    In the days after Hurricane Katrina, interagency Incident 
Management Teams managed all-agency radio/phone/data communications, 
coordinated the receiving and distribution of trailers for housing and 
thousands of truckloads of supplies, provided evacuees with food, 
clothing and shelter, and supported emergency medical operations at the 
New Orleans base camp. Interagency Incident Management Teams have 
managed evacuation centers in Phoenix, AZ, and Houston and San Antonio, 
TX. Teams are providing base camp operations and support to emergency 
responders in 14 locations in Mississippi, Louisiana, and Texas. Camp 
operations include feeding, billeting, showers, and laundry for 
emergency personnel. Disaster mortuary operations have been supported 
by base camps run by interagency Incident Management Teams.
    Seventeen Interagency Buying Teams have been an integral part of 
the hurricane response effort. These teams have purchased food, 
portable toilets, fuel, safety gear, medical supplies, or leased land, 
buildings, or equipment as needed to support the Incident Management 
Teams.
    The National Forest, Research, and State and Private Forestry 
branches of the Forest Service have begun extensive coordination with 
the affected states, other federal agencies, and industry associations 
to assist with managing the large scale ecological disturbance caused 
by the hurricanes. The Forest Service is working in concert with the 
State Foresters of Alabama, Mississippi, Louisiana, Texas, and Arkansas 
to help private landowners with immediate problems of downed timber 
removal and longer term questions involving storage and production 
capacity. Interagency teams are in place and are working with the 
States to plan for long range fuel mitigation, fire readiness and 
prevention, and fire suppression. Fire prevention education teams are 
also working with local agencies, media, and publics in stressing 
caution about hurricane debris disposal. Additional firefighting crews 
and equipment have been moved to the Gulf Coast in anticipation of 
increased fire activity.
Summary
    Mr. Chairman, the Forest Service, in its one hundred year history, 
has responded to many emergencies and incidents ranging from major 
fires, to insect infestations to hurricanes. All of these have tested 
the agency's and its partners' management skills and abilities. The 
systems that have been developed and tested over and over again are 
useful and adaptable. I am glad the Forest Service could contribute to 
responding to the emergency after the hurricanes. I would be happy to 
answer your questions.

    Mr. Reichert. The Chair now recognizes Dr. David Boyd, 
director of the Office of Interoperability and Communications 
of the U.S. Department of Homeland Security to testify.

                    STATEMENT OF DAVID BOYD

    Dr. Boyd. Good morning and thank you, Mr. Chairman, and 
members of the committee, for this invitation to speak to you 
today. As you have already observed, Mr. Chairman, 
interoperability requires before all else simple operability. 
As Katrina demonstrated, in the absence of a reliable network 
across which responders within an agency can effectively 
communicate, interoperability is both irrelevant and 
impossible. Some seem to believe the introduction of new 
technologies alone can solve our interoperability problems. But 
adding equipment addresses only part of what a fully robust 
reliable and both operable and interoperable public safety 
communications system requires. For example, on the technology 
side alone, when we lose towers, first responders have only 
their mobile or portable units available, so range is 
dramatically reduced and control of the incident is severely 
compromised. Portable units permit some short range 
communications until the proprietary battery packs begin to 
fail and cannot be recharged because the chargers are typically 
attached to the power grid.
    911 centers are tied to the wired telephone network and so 
is the cellular system which also depends on cell phones that 
use proprietary batteries. No single fix alone can address all 
these elements. Many solutions have been offered and many 
claims have been made for each solution and all do have a role. 
But none is the silver bullet. Satellite phones are extremely 
useful for command elements but often hopelessly impractical 
for individual first responders. They require training and 
signals can be blocked by vegetation, buildings, terrain and 
even weather. They also use batteries that need recharging, and 
the first responder in the middle of a rescue or up to his 
armpits in water will find aiming the antenna hard or 
impossible. Van--and trailer-mounted communication systems 
dropped into an incident nearly always offer substantially less 
coverage than the original system and may require significant 
training to use.
    And all of these, without solid prior planning, will add to 
the difficulties of achieving interoperability once operability 
is achieved. We believe that what we have developed to support 
interoperability can also help first responders successfully 
navigate any communications emergency. We in the public safety 
community have identified six key building blocks required to 
achieve interoperability--governance, standard operating 
procedures, technology, training and exercises, and routine use 
of interoperable systems. Crosscutting all of these is the 
sixth and most important element, a high degree of leadership, 
planning and collaboration with a commitment to and investment 
in sustainability.
    To help public safety agencies and especially the policy 
levels of government understand the interrelationship of all of 
these factors, we developed a tool called the Interoperability 
Continuum. This planning tool explains how all these elements 
relate to each other and makes clear all of these elements need 
to be addressed before, not for the first time during an 
emergency. Interoperability is not a new issue. It was a 
problem in Washington D.C. when the Air Florida flight crashed 
into the Potomac in 1982, in New York City when the Twin Towers 
were first attacked in 1993, in 1995 when the Murrah Building 
was destroyed in Oklahoma City, and in 1999 at Columbine.
    Too many public safety personnel cannot communicate by 
radio because their equipment is still incompatible or the 
frequencies they are assigned to are different. They operate on 
10 different frequency bands that run communication sytems that 
are often proprietary and too often 30 or more years old. Over 
90 percent of the Nation's public safety wireless 
infrastructure is financed, owned, operated and maintained by 
the more than 60,000 individual local jurisdictions, police, 
fire and emergency medical services that serve the public. 
National efforts to fix the problem have historically been 
erratic, uncertain and until recently uncoordinated.
    Worst, the efforts have too often been designed without the 
direct involvement of the people with the greatest stake in 
effective communications, the first responders. The attacks on 
September 11 made clear this had to change. Since September 11, 
significant progress has been made in interoperability, thanks 
to the priorities both the administration and Congress have 
placed on it. In 2001, SAFECOM was established as a 
presidential management initiative.
    In 2004, the Department established the Office for 
Interoperability and Compatability to further strengthen and 
integrate both interoperability and compatibility efforts and 
in the Intelligence Reform Act Congress gave it a legislative 
charter. While fixing the Nation's interoperability problem 
will require a sustained effort, we recognize that we cannot 
wait to move things forward. That is why SAFECOM has initiated 
a number of near-term initiatives, including work with the 
National Institute of Standards and Technology, to accelerate 
the development of standards, development of the 
Interoperability Continuum and statewide planning tools, 
RAPIDCOM, a program executed in about 150 days which helped 
ensure that 10 high risks urban areas had an emergency command 
level interoperability capability.
    Creation of a public safety architectural framework, 
creation of a P-25 conformance testing program, development of 
coordinated grant guidance for use in all Federal grant 
programs, creation of a national baseline and identification of 
public safety spectrum needs are all near term initiatives. 
This Nation is heavily invested in an existing infrastructure 
that is too often inadequate to the basic communications 
requirements of individual agencies and not interoperable. We 
must continue to pursue a comprehensive strategy that takes 
into account technical and cultural issues associated with 
improving interoperability which recognize the challenges 
associated with incorporating legacy equipment and practices in 
constantly changing technology, cultural environments and which 
encourages strong local leadership in insuring that the needs 
of the front line of emergency response, the first responders, 
are met.
    Though many challenges remain, we believe we have 
accomplished a great deal in the short time DHS has managed the 
program. And I would be happy to answer any questions the 
committee may have
    Mr. Reichert. Thank you, Dr. Boyd.
    [The statement of Dr. Boyd follows:]

        Prepared Statement for the Record of Dr. David G. Boyd,

Introduction
    Good morning and thank you, Chairman Reichert, Ranking Member 
Pascrell, and Members of the Subcommittee, for the invitation to speak 
to you today.
    Today's testimony will focus on SAFECOM and its role in improving 
public safety communications. SAFECOM is the communications program of 
the Office for Interoperability and Compatibility (OIC), which resides 
in the Office of Systems Engineering and Development, Science and 
Technology (S&T) Directorate, Department of Homeland Security (DHS). 
SAFECOM provides research, development, testing, evaluation, guidance, 
and assistance for Federal, State, local, and tribal public safety 
agencies working to improve public safety response through more 
efficient and effective interoperable wireless communications. 
Communications interoperability refers to the ability of public safety 
agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice and data with one another on 
demand, in real time as authorized.
    Since September 11, 2001, significant progress has been made to 
improve communications for the public safety community as more and more 
jurisdictions move from being simply operable to being interoperable. 
However, it is apparent that more progress must be achieved. Much of 
this advancement can be attributed to the priority that both the 
Administration and Congress have placed on achieving communications 
interoperability. In 2001, SAFECOM was established as a Presidential 
Management Initiative and charged with strengthening interoperability 
at all levels of government by coordinating Federal programs, 
initiating a comprehensive standards program, and developing a national 
interoperable communications architecture. In 2004, the Department 
established OIC to further strengthen and integrate interoperability 
and compatibility efforts to help improve Federal, State, local, and 
tribal public safety preparedness and response. OIC was directed to:
        <bullet> Identify and coordinate all DHS programs that address 
        interoperability;
        <bullet> Support the creation of interoperability standards;
        <bullet> Establish a comprehensive research, development, 
        testing, and evaluation (RDT&E) program for improving public 
        safety interoperability;
        <bullet> Integrate coordinated grant guidance across all DHS 
        grant-making agencies that address public safety 
        interoperability;
        <bullet> Oversee the development and implementation of 
        technical assistance for public safety interoperability;
        <bullet> Conduct pilot demonstrations;
        <bullet> Create an interagency interoperability coordination 
        council; and
        <bullet> Establish an effective outreach program.

Relationship between Operability and Interoperability
    Communications operability refers to the functional capability of a 
communications system that makes a specific operation possible. For 
example, operability exists when all responders within one agency can 
speak with each other by radio. The next step is to become 
interoperable--which we at SAFECOM define as facilitating 
communications between and among agencies and jurisdictions.
    From its creation, SAFECOM has always emphasized the importance of 
operability within an organization because it is a prerequisite for 
interoperability. As Hurricane Katrina demonstrated, in the absence of 
a reliable network across which responders within an agency can 
effectively communicate, interoperability is neither possible nor 
relevant.
    For agencies that already have communications operability, SAFECOM 
has created a number of highly successful tools and methodologies that 
can be used to help achieve interoperability. For agencies that do not 
yet have communications operability, much of SAFECOM's work is still 
applicable. When operability itself is incomplete, , it is usually the 
result of technical issues. SAFECOM's work in helping to develop 
standards, encouraging system migration, and participating in the 
coordination of communications spectrum policy have all helped improve 
operability across the Nation. Once basic operability is achieved, 
agencies can then focus on achieving interoperability.

SAFECOM's Vision for Improving Communications
    Practitioners have helped SAFECOM articulate a long-term vision for 
interoperability which projects that in the future emergency responders 
will operate on a national system-of-systems using standards-based 
equipment that provides the capability to respond to an incident 
anywhere in the country, using their own equipment, on any network, and 
on dedicated public safety spectrum. They will be able to communicate 
with each other, as authorized, in real time via voice, data, and 
video-on-demand. Achieving this vision will require effort in five 
critical areas, including:
        1. Development of guidelines and criteria for public safety 
        communications systems;
        2. Coordination of testing and evaluation processes;
        3. Standardization of equipment fortified by grant guidance;
        4. Coordination of communications spectrum policy; and
        5. Coordination of communications planning.
    These efforts will take time to achieve, but many of them are 
already beginning to strengthen communications and interoperability in 
the public safety community.

    Development of Guidelines and Criteria for Public Safety 
Communications Systems
    Communications plans to support incident response should be 
developed based on a national architecture framework with common 
guidelines and criteria for public safety communications systems. Only 
when these guidelines are universally broadly recognized and followed 
will emergency responders and the larger public safety community be 
able to communicate effectively. To that end, SAFECOM published Version 
1.0 of the first ever comprehensive Statement of Requirements (SoR) for 
Public Safety Wireless Communications and Interoperability. Developed 
with public safety practitioner input, the SoR defines the functional 
requirements for public safety communications. Subsequent versions will 
further refine these technical requirements so that industry will have 
a blueprint from which to build technologies that address public safety 
needs. This SoR also serves as the basis for developing a national 
architecture framework for public safety communications 
interoperability. SAFECOM is working to develop a Public Safety 
Architecture Framework (PSAF) that, along with the SoR, will serve as a 
tool to help the Nation's emergency responder agencies understand the 
technical requirements and national migration path toward fully 
interoperable communications systems without imposing requirements that 
stifle innovation.
    For agencies that do not yet have communications operability, the 
SoR and PSAF are useful tools for analyzing options to achieve basic 
operability and to achieve interoperability in the near future. The 
PSAF allows agencies to understand that they need to have a 
communication system that is not only operable, but also interoperable 
with other systems in the region, while the SoR identifies technical 
requirements needed for new systems.

Coordination of Testing and Evaluation Processes
    The testing and evaluation of equipment will help communities 
identify their levels of operability. Coordinated testing and 
evaluation processes will ensure communications equipment meets the 
critical needs of emergency responders; the first critical need being 
operability. Public safety agencies face many complex procurement 
decisions and do not always have in-house expertise to validate 
manufacturer's claims. To ensure that public safety agencies can trust 
the claims made by vendors, communications equipment needs to be 
independently tested and evaluated. To do this, SAFECOM created a 
testing and evaluation working group to help ensure that methodologies 
for testing and evaluation of interoperability products are technically 
sound and comparable across testing laboratories. The working group 
members are practitioners and subject matter experts from law 
enforcement, fire services, and emergency medical services. These 
members help review and develop test criteria and serve the program by 
determining which products should be evaluated.

Standardization of Equipment Fortified by Grant Guidance
    Standardization of equipment, fortified by grant guidance measures, 
is an essential step in achieving improved communications. The 
equipment must adhere to communications standards that allow for 
operability as well as interoperability. As standards are created, 
funding solutions must also be implemented to help jurisdictions focus 
on meeting interoperability goals and requirements. To better 
coordinate funding for interoperability solutions, such as purchasing 
new equipment, developing State plans, and other activities, SAFECOM 
coordinated resolution of conflicting Federal grant guidance. This will 
help maximize the impact of limited Federal resources to create systems 
that improve interoperability rather than making it more difficult to 
achieve.
    SAFECOM's coordinated grant guidance outlines eligibility for 
grants, the purposes for which grants can be used, and the guidelines 
for implementing a wireless communications system in order to help 
maximize the efficiency with which public safety communications related 
grant dollars are allocated and spent. To ensure consistency in 
interoperability grant solicitations, this guidance has been included 
in grant programs administered by the Department of Justice and other 
agencies within DHS.
    Within DHS, the Office for State and Local Government Coordination 
and Preparedness (SLGCP) reports that more than $1.6 billion in 
homeland security assistance to local jurisdictions, urban areas, and 
states has been spent on interoperable communications over the past two 
years alone. SLGCP has three primary grant programs that have 
incorporated SAFECOM's grant guidance on issues regarding 
communications interoperability. These programs are the State Homeland 
Security Grant Program, Urban Areas Security Initiative (UASI) Grant 
Program, and the Law Enforcement Terrorism Prevention Grant Program. 
Many of the system procurements and enhancements supported by this 
funding are in the process of being implemented.
    It is important to note, however, that although SAFECOM has 
developed consensus guidance and tools to improve the grant-making 
process, SAFECOM does not directly manage nor provide funding to State 
or local agencies for communications projects. Given the sheer number 
of state and local public safety agencies, regional communication 
implementation simply cannot be managed centrally from Washington. 
Grant guidance is an important step toward improving national 
interoperability because it helps to align public safety 
communications-related grant dollars with the national effort to 
improve interoperability at all levels of government.
    In addition, the Office of Management and Budget (OMB) requires 
that all Federal agencies demonstrate their programs are fully aligned 
with SAFECOM guidance in developing their own communications plans.

Coordination of Communications Spectrum Policy
    The communications spectrum is a critical component for 
operability; it is the highway over which voice, data, and image 
communications travel. Radio spectrum is a finite resource--there is 
only so much available, and it is shared by public safety, radio 
broadcasters, government users, and other commercial and private 
consumers. The large demand for this resource can lead to overcrowding, 
which in turn can cause delays in or disruption of communication for 
public safety. The Federal Communications Commission (FCC) has 
allocated certain frequencies to public safety, but these allocations 
are fragmented, creating challenges for communications among different 
agencies and jurisdictions. In the Intelligence Reform and Terrorism 
Prevention Act of 2004 (P.L. 108-458), Congress required the FCC, in 
consultation with DHS and the National Telecommunications and 
Information Administration (NTIA), to conduct a study to assess the 
spectrum needs for Federal, State, and local emergency responders, 
which is due in December 2005. SAFECOM is currently assessing public 
safety spectrum needs in support of the President's national spectrum 
management initiative. DHS, in consultation with the Department of 
Commerce and other relevant agencies, is developing a Spectrum Needs 
Plan based on these assessments, which will be delivered to the 
President by the end of November 2005. SAFECOM believes in maintaining 
the current schedule to open the 24 megahertz (MHz) of spectrum in the 
700 MHz band allocated by the FCC in 1998 for public safety use in 
accordance with recommendations from the Public Safety Wireless 
Advisory Committee.

Coordination of Communications Planning
    Strengthening and ensuring basic-level public safety communications 
capabilities, as well as backup communications, are key tasks in 
improving communications. Once agency-specific operability is ensured, 
it is essential to progress towards multi-jurisdictional and multi-
disciplinary interoperability, which requires attention to more than 
technology. SAFECOM has identified five interrelated building blocks 
that are essential to forming a foundation for multi-jurisdictional and 
multi-disciplinary communications capabilities that include governance, 
standard operating procedures (SOP), technology, training and 
exercises, and usage.
    SAFECOM has developed an interoperability continuum to measure a 
community's level of progress in these elements. The continuum helps 
communities assess where they are deficient and provides valuable 
insight to Federal policy makers for targeting interoperability 
assistance.
    As the continuum provides a guide for communities to progress 
towards interoperability, the National Interoperability Baseline study, 
a major initiative undertaken by SAFECOM, will provide a statistically 
significant, quantitative measurement of where communities stand on the 
path towards interoperability. The development of the survey 
methodology was initiated in January 2005, and the resulting study will 
allow SAFECOM to identify areas with operability and interoperability 
shortfalls, track the impact of Federal programs and measure the 
success of these programs, establish an ongoing process and mechanism 
to measure the state of interoperability on a recurring basis, and 
develop an interoperability baseline self-assessment tool for State and 
local public safety agencies.

Statewide Communications Interoperability Planning (SCIP)
    SAFECOM has made considerable progress in developing statewide 
planning tools. In 2004, SAFECOM partnered with the Commonwealth of 
Virginia and the Department of Justice to develop a strategic plan for 
improving statewide interoperable communications for the state. The 
effort was based on SAFECOM's ``bottom-up,'' locally-driven approach, 
which improves upon many previous statewide communications planning 
efforts that use a top-down approach by considering the requirements of 
the emergency responders who are the primary users and who control most 
of the wireless infrastructure. Based on lessons learned from the 
Virginia planning process, SAFECOM published the Statewide 
Communications Interoperability Planning (SCIP) Methodology as a model 
for integrating practitioner input into a successful statewide 
strategic plan for every state.

Regional Communications Interoperability Pilots
    SAFECOM is also implementing Section 7304 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 (Public Law 108-458), which 
authorized the Secretary of Homeland Security to carry out at least two 
Regional Communications Interoperability Pilots (RCIP). In accordance 
with Congressional criteria for determining the location of the pilot 
sites, as well as criteria outlined by the program itself, SAFECOM 
selected the State of Nevada and the Commonwealth of Kentucky as RCIP 
locations. SAFECOM, in coordination with SLGCP's Interoperable 
Communications Technical Assistance Program, is helping both states 
implement the SCIP methodology.
    Building on lessons learned from the SCIP Methodology and earlier 
SAFECOM initiatives, the RCIP projects will help OIC identify models 
for improving communications and interoperability that take into 
account the wide range of challenges across the Nation. When the 
projects are complete, Nevada and Kentucky will each have improved 
interoperability plans, and we will be able to use the lessons learned 
to better develop or strengthen replicable tools and methodologies that 
will be made available to public safety practitioners, as well as to 
State and local governments. An interim report regarding the progress 
of the pilot projects has been submitted to Congress. A final report 
will be provided to Congress in June 2006.
    SAFECOM believes that statewide emergency communications plans are 
fundamental to an effective response to a catastrophic event. As States 
continue to develop their own plans, SAFECOM recommends that they do so 
in coordination with SAFECOM methodologies and guidance.

RapidCom
    SAFECOM has always emphasized that mission-critical operations are 
the primary concern of public safety. Through efforts such as RapidCom, 
SAFECOM initiated a program to help improve capabilities for immediate 
incident-level interoperable emergency communications in ten high-
threat urban areas centered in Boston, Chicago, Houston, Jersey City, 
Los Angeles, Miami, New York, Philadelphia, San Francisco, and the 
Washington metropolitan area. In coordination with SLGCP, the 
Department of Justice's 25 Cities Program, and the DHS Wireless 
Management Office, SAFECOM worked closely with public safety leaders in 
the ten high-risk urban areas to assess their communications 
interoperability capacity and needs, and to identify and implement 
solutions. In keeping with SAFECOM's ``bottom-up'' approach, local 
officials drove the design and implementation of solutions in their 
jurisdictions.
    With the on-time completion of the RapidCom project, incident 
commanders in each of the urban areas have now confirmed they have the 
ability to communicate adequately with each other and their respective 
command centers within one hour of an incident. The lessons learned 
from RapidCom can be applied to all public safety agencies at the 
Federal, State, local, and tribal levels.
    In the Department of Homeland Security Appropriations Act, 2006, 
Congress has provided $5 million in funding to expand RapidCom to other 
urban areas.

Conclusion
    SAFECOM will continue to emphasize that before progress can be made 
to improve interoperable communications, operability must first be in 
place. The initiatives described above are helping to advance 
operability and interoperability of public safety communications. We 
must continue to pursue a comprehensive strategy that takes into 
account all issues associated with improving communications while 
ensuring that the needs of emergency responders are met. Though many 
challenges remain, we believe we have accomplished a great deal in the 
short time DHS has managed this program.
    We are confident that with your continuing support and the 
assistance of our many Federal partners, we will continue to move 
towards a world where lives and property are never lost because public 
safety agencies are unable to communicate or lack compatible equipment 
and training resources.
    This concludes my prepared statement. With the Committee's 
permission, I request my formal statement be submitted for the record. 
Mr. Chairman, Ranking Member Pascrell, and Members of the Subcommittee, 
I thank you for the opportunity to appear before you today and will be 
happy to answer any questions that you may have.
    Appendix I: OIC Authorities from the Intelligence Reform and 
Terrorism Prevention Act of 2004
    Congress, with the passage of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (PL 108-458) less than a year ago, gave OIC and 
SAFECOM legislative authority to carry out its responsibilities. Before 
passage of this act, responsibility for addressing interoperability was 
spread across three different agencies. The following is a scorecard of 
OIC legislative authorities, activities that have been conducted under 
those authorities, and the progress achieved on each activity:

------------------------------------------------------------------------
     OIC Authority from the
     Intelligence Reform and        OIC Activities         Progress
Terrorism Prevention Act of 2004
------------------------------------------------------------------------
Coordinate with other Federal     <bullet> Developin        <bullet> On
 agencies to establish a           g a national                schedule
 comprehensive national approach   strategy, which
 to achieving public safety        leverages work
 interoperable communications;     conducted by
                                   other agencies
                                   across the
                                   Federal
                                   government
                                  <bullet> Working          <bullet> On
                                   with the National           schedule
                                   Institute of
                                   Standards and
                                   Technology (NIST)
                                   to develop
                                   communication
                                   standards
------------------------------------------------------------------------
Develop, with Federal agencies    <bullet> Created    <bullet> Completed
 and state and local               the Statement of
 authorities, minimum              Requirements for
 capabilities for communications   Public Safety
 interoperability for Federal,     Wireless
 State, and local public safety    Communications
 agencies;                         and
                                   Interoperability
                                   (SoR)
                                  <bullet> Working          <bullet> On
                                   with the Office             schedule
                                   for Domestic
                                   Preparedness
                                   (ODP) on the
                                   Target
                                   Capabilities List
------------------------------------------------------------------------
Accelerate voluntary consensus    <bullet> Developed  <bullet> Completed
 standards for public safety       a plan, with
 interoperable communications;     NIST, and
                                   delivered a
                                   report to
                                   Congress on
                                   accelerating the
                                   development of
                                   national
                                   voluntary
                                   consensus
                                   standards for
                                   public safety
                                   interoperable
                                   communications
                                  <bullet> Working          <bullet> On
                                   with NIST to                schedule
                                   develop a P25
                                   Conformance
                                   Testing program
                                   that will use
                                   independent labs
------------------------------------------------------------------------
Develop and implement flexible    <bullet> Developin        <bullet> On
 open architectures for short-     g the Public                schedule
 and long-term solutions to        Safety
 public safety interoperable       Architecture
 communications;                   Framework
------------------------------------------------------------------------
Identify priorities for           <bullet> Created a        <bullet> On
 research, development, and        Testing and                 schedule
 testing and evaluation within     Evaluation
 DHS and assist other Federal      working group to
 agencies in doing the same with   identify testing
 regard to public safety           priorities for
 interoperable communications;     interoperability
                                   gateways and is
                                   currently
                                   evaluating other
                                   potential
                                   communications
                                   products for lab
                                   testing
                                  <bullet> Developin        <bullet> On
                                   g a standardized            schedule
                                   report format for
                                   presenting test
                                   results
------------------------------------------------------------------------
Establish coordinated guidance    SAFECOM's grant     <bullet> Completed
 for Federal grant programs for    guidance has been
 public safety interoperable       incorporated in
 communications                    public safety
                                   communications
                                   related grant
                                   guidance
                                   including the FY
                                   2003 Federal
                                   Emergency
                                   Management Agency
                                   (FEMA) grants,
                                   the FY 2003/FY
                                   2004/FY 2005
                                   Department of
                                   Justice's Office
                                   of Community
                                   Oriented Policing
                                   Services (COPS)
                                   grants, the FY
                                   2004/FY 2005 ODP
                                   grants
------------------------------------------------------------------------
Provide technical assistance to   <bullet> Implement  <bullet> Completed
 State and locals regarding        ed the RapidCom
 planning, acquisition             Initiative
 strategies, and other functions
 necessary to achieve public
 safety communications
 interoperability;
                                  <bullet> Developed  <bullet> Completed
                                   the
                                   Interoperability
                                   Continuum
                                  <bullet> Conductin        <bullet> On
                                   g Regional                  schedule
                                   Communications
                                   Interoperability
                                   Pilots (RCIP) in
                                   Kentucky and
                                   Nevada
------------------------------------------------------------------------
Develop and disseminate best      <bullet> Created    <bullet> Completed
 practices to improve public       SAFECOM Grant
 safety communications             Guidance
 interoperability;
                                  <bullet> Developed  <bullet> Completed
                                   the Statewide
                                   Communications
                                   Interoperability
                                   Planning (SCIP)
                                   Methodology
                                  <bullet> Developed  <bullet> Completed
                                   the
                                   Interoperability
                                   Continuum
                                  <bullet> Developed  <bullet> Completed
                                   the
                                   Communications
                                   Tabletop Exercise
                                   Methodology
                                  <bullet> Created    <bullet> Completed
                                   additional tools
                                   and models to
                                   help public
                                   safety users
------------------------------------------------------------------------
Develop appropriate performance   <bullet> Developin        <bullet> On
 measures and milestones to        g the National              schedule
 measure the nation's progress     Interoperability
 to achieving public safety        Baseline
 communications
 interoperability;
------------------------------------------------------------------------
Provide technical guidance,       <bullet> Implement  <bullet> Completed
 training, and other assistance    ed the RapidCom
 to support the rapid              Initiative
 establishment of consistent,
 secure, and effective
 interoperable communications
 capabilities in the event of an
 emergency in urban and other
 areas determined by the
 Secretary of Homeland Security
 to be at consistently high
 levels of risk from terrorist
 attack; and develop minimum
 interoperable communications
 capabilities for emergency
 response providers..
                                  <bullet> Conductin        <bullet> On
                                   g Regional                  schedule
                                   Communications
                                   Interoperability
                                   Pilots (RCIP) in
                                   Kentucky and
                                   Nevada
------------------------------------------------------------------------

Appendix II: Tools and Methods based on State and Local Pilots
    Tools and methods that SAFECOM has developed based on State and 
local pilot efforts include:
        <bullet> Communications Tabletop Exercise Methodology, a 
        process for a communications-focused tabletop exercise 
        replicable across urban areas.
        <bullet> Tabletop Exercise After-Action Report, a template for 
        capturing key findings and identifying gaps following each 
        tabletop exercise.
        <bullet> Interoperability Pocket Guide, a process for creating 
        an area-specific interoperability pocket guide to ensure local 
        public safety officials are aware of current capabilities 
        available in their areas.
        <bullet> Templates for Improving Interoperability, including 
        governance charter, standard operating procedure, and 
        memorandum of agreement templates to help communities improve 
        interoperability.
        <bullet> Operational Guide for the Interoperability Continuum--
        Lessons Learned from RapidCom, which outlines the importance of 
        each element of the Interoperability Continuum, provides common 
        challenges to consider when working towards improved 
        interoperability and recommends key actions to increase an 
        area's capabilities.

    Mr. Reichert. The Chair now recognizes Dr. Peter Fonash, 
deputy manager of the National Communications Systems of the 
U.S. Department Homeland Security.

                   STATEMENT OF PETER FONASH

    Mr. Fonash. Thank you, Mr. Chairman, and distinguished 
members of the committee. I am Dr. Peter Fonash, and I am 
honored to testify before you today. I am the deputy manager of 
the National Communications Systems, NCS. In my testimony 
today, I will explain the role that the NCS played in preparing 
for and responding to Hurricane Katrina. NCS started under 
President Kennedy in the 1960s. The NCS is a consortium of 
Federal departments and agencies that have assets, resources, 
requirements and/or regulatory authority regarding National 
Security and Emergency Preparedness, NS/EP. Communications. The 
NCS assists the executive office of the President in ensuring 
NS/EP communications for the Federal Government under all 
circumstances.
    A key tenet of ensuring communications is reliance on the 
resiliency and rapid restoration capabilities of the commercial 
communications infrastructure, necessitating strong 
relationships with industry. The NCS's National Coordinating 
Center for telecommunications, or NCC, is a joint industry/
government body within the NCS. The operational mission of the 
NCC is the coordination of communications restoration efforts 
in an emergency. The NCS has a major communications role in the 
current National Response Plan, or NRP. The NCS is the lead 
agency for emergency support function number 2 (known as 
ESF#2), which is the communications component of the National 
Response Plan.
    The purpose of ESF#2 is to ensure the provision of Federal 
communications support to Federal, State, local, tribal and 
private sector response efforts during an incident of national 
significance. Under the National Response Plan, the NCC is the 
Federal office for national telecommunications domestic 
incident management. To facilitate coordination of industry/
government operations during an emergency, the NCS has 
established and continuously operates several priority service 
programs which help to ensure critical calls are completed in 
the event of congestion or damage to the national commercial 
communications infrastructure.
    The Nation heavily used each of these programs during 
Hurricane Katrina. These programs include the Government 
Emergency Telecommunications Service, (GETS) program, the 
Wireless Priority Service, (WPS) program, and the 
Telecommunications Service Priority, (TSP) program. The NCS 
(also manages another program, the Shared Resources High 
Frequency Radio, (SHARES), which provides voice and low speed 
data communications independent of the commercial 
communications infrastructure.
    In anticipation of Hurricane Katrina, the NCS conducted 
various preparations including: heightening the alert status of 
the NCC's 24-hour watch; placing key programs such as GETS, 
WPS, TSP and SHARES on alert; providing personnel to staff 
ESF#2 regional offices and the FEMA headquarters; and 
conducting analysis of critical communications assets in the 
projected impact area. Industry worked equally hard to prepare. 
Companies moved emergency response teams and equipment to the 
region, established communication and bridges among carriers, 
activated damage assessment teams and kept in constant 
communication with the NCC. Bell South opened its operations 
center to all carriers for coordination purposes.
    As of August 28, the NCS was ready. All systems and 
personnel were in place for the ESF 2 elements to receive 
communications support requests from the States impacted by 
Katrina. Katrina and the flooding in New Orleans caused 
unprecedented damage to the communications infrastructure. More 
than 3 million phone customers were out of service. For the 
first time in history, switching centers were out of operation 
due to water damage. Numerous 911 call centers were down and up 
to 2,000 cellular towers were out of service. In addition, 
significant damage had been inflicted on first responder land 
mobile radio communications.
    At the NCC in Washington, industry identified three 
priorities to the NCS: security, fuel and access. The NCC 
assisted industry by coordinating security forces and 
requirements between industry and government to protect repair 
teams, communications sites and staging areas. In addition, in 
a limited number of circumstances, the NCC arranged to provide 
communications carriers and broadcast companies with generators 
where the power was out, fuel for generators and power outage 
maps.
    The NCS coordinated closely with FEMA and local authorities 
to provide the carriers access to locations in need of repair. 
In the impacted areas, ESF#2 worked with State and local 
governments to help identify and provide solutions to the 
communications needs. ESF#2 arranged for mobile satellite and 
cellular vans and for hundreds of satellite phones. The extent 
of the destruction and damage to communications infrastructure 
and services caused by Katrina greatly exceeded any other 
disaster previously encountered by the NCS. A hurricane of the 
historical magnitude of Hurricane Katrina stressed the 
processes and procedures of the NCS and required ESF#2 to 
perform new functions, such as, providing an interim land 
mobile radio system to three parishes in Louisiana.
    Currently the NCS is fully engaged in assisting with the 
restoration efforts in the wake of Hurricanes Katrina, Rita, 
and now Wilma. In an ongoing effort to improve communications, 
the NCS is currently examining its actions regarding Hurricane 
Katrina, identifying issues and lessons learned and developing 
recommendations. We are fully committed to incorporating 
lessons learned in future plans, procedures and capabilities.
    This concludes my oral statement. I have submitted a 
written statement for the record. Thank you for the opportunity 
to address this distinguished subcommittee. I will be pleased 
to answer any questions you have.
    Mr. Reichert. Thank you, Dr. Fonash.
    [The statement of Mr. Fonash follows:]

               Prepared Statement of Dr. Peter M. Fonash

I. Introduction
    Thank you, Mr. Chairman and distinguished members of the Committee. 
I am Dr. Peter M. Fonash and am honored to testify before you today. I 
am the Deputy Manager of the National Communications System (NCS), 
which is aligned within the Preparedness Directorate of the Department 
of Homeland Security (DHS).
    In my testimony today, I will explain the role that the NCS played 
in preparing for and responding to Hurricane Katrina. The NCS' greatest 
concern was meeting the needs of those affected by Hurricane Katrina 
and our first priority was trying to facilitate provisioning and 
restoration of communications services.
    As you know, Hurricane Katrina was one of the worst natural 
disasters in our nation's history, impacting an area of approximately 
90,000 square miles. For perspective, the area impacted by Hurricane 
Charley in 2004 was 1,500 square miles. Also as a result of Charley, 
more than 150,000 customers were without phone service. In contrast, 
more than 3 million people in the Gulf States lost phone service due to 
Hurricane Katrina, and over 180 central office locations were running 
on generators due to loss of commercial power.
    The NCS' authorities and responsibilities regarding emergency 
communications stem from two principal federal documents. I will give a 
very brief overview of these, and then detail the NCS' Hurricane 
Katrina actions for you.
    The NCS started under President Kennedy in the 1960s and was 
formalized in a 1983 Executive Order under President Reagan called E.O. 
12472. The NCS is a consortium of federal departments and agencies that 
have assets, resources, requirements and/or regulatory authority 
regarding national security and emergency preparedness (NS/EP) 
communications. Today, the NCS has 23 different federal entities, 
including the Department of Defense, General Services Administration, 
FEMA, National Telecommunications and Information Administration, 
intelligence agencies, State Department and the Federal Communications 
Commission, among others. The Office of the Manager NCS, comprised of 
approximately 100 civilian and military personnel assigned to DHS, 
executes the programs and activities of the NCS. As set forth in the 
governing Executive Order, the NCS assists the President, The National 
Security Council, Office of Science and Technology Policy, Homeland 
Security Council and the Office of Management and Budget in 
coordinating the planning and provision of NS/EP communications for the 
Federal Government under all circumstances, including crisis or 
emergency, attack, recovery, and reconstitution.
    The NCS has a history of addressing issues that cut across the 
Executive Branch. One important effort has been the establishment and 
tasking of the Continuity Communications Working Group (CCWG). The 
CCWG, within the past year, has initiated work on a Continuity 
Communications Enterprise Architecture. This effort will help to 
support Minimum Essential Functions of the Federal Government under all 
circumstances, including crisis, emergency, attack, recovery, and 
reconstitution.
    As mandated by the Executive Order, the NCS also includes an 
industry component, which was especially valuable during Hurricane 
Katrina, called the National Coordinating Center for 
Telecommunications, or NCC, a joint industry/Government body within the 
NCS. The operational mission of the NCC is the coordination of 
restoring and reinstituting NS/EP communications in an emergency. The 
NCC operates a 24 hour, 7-day a week watch center-which during 
Hurricane Katrina conducted daily analysis and situational monitoring 
of ongoing events and response capabilities. The NCC houses both 
industry representatives and Government counterparts in the same 
physical space to facilitate information sharing and coordination of 
activities.
    The Executive Order also charges the NCS to ensure development of a 
national communications infrastructure for a range of national 
security/emergency purposes, including preparing for and responding to 
hurricanes such as Hurricane Katrina. This includes critical features 
such as priority communications, and infrastructure redundancy. A key 
tenant of ensuring communications is reliance on the resiliency and 
rapid restoration capabilities of the commercial communications 
infrastructure (e.g., BellSouth, AT&T) necessitating strong 
relationships with industry.
    The NCS works closely with organizations within the Federal 
government to ensure NS/EP communication requirements are built into 
technology solutions. For example, the NCS engages with the DHS Science 
and Technology Directorate, Office for Interoperability and 
Compatibility (OIC) on the development and creation of standards 
pertaining to communications. NCS also works with the DoD on the 
development of security standards for next generation networks.
    In addition to the Executive Order, the NCS has a specific 
communications role in the current National Response Plan, or NRP. 
Specifically, the NCS is the lead agency with responsibility for 
Emergency Support Function #2 (known as ``ESF 2''), which is the 
communications component of the National Response Plan. The 
Communications annex ``ensures the provision of Federal communications 
support to Federal, State, local, tribal and private-sector response 
efforts during an Incident of National Significance.''
    In support of the ESF 2, the NCS's NCC functions as a central point 
of coordination and information sharing for communications 
infrastructure operators. Once notified of a Federal disaster, the NCC 
works with its federal government and industry partners to:
        <bullet> Assess anticipated/actual damage
        <bullet> Identify communication requirements
        <bullet> Prioritize requirements
        <bullet> Monitor the developing situation/response
        <bullet> Render status reports
        <bullet> Coordinate communication service provisioning and 
        restoration as required with industry members and other 
        communication providers
    To facilitate coordination of industry/Government operations during 
an emergency, the NCS has established and continuously operates several 
priority service programs, which help to ensure critical calls are 
completed in the event of congestion or damage to the national 
commercial communications infrastructure. The nation heavily used each 
of these programs during Hurricane Katrina. For example:
    The Government Emergency Communications Service (GETS) program 
provides priority treatment for authorized users to ensure a higher 
rate of call completion during periods of outages or congestion 
resulting from disasters. Simply put, the phone call of a GETS user 
such as a state employee or hospital worker could go through before 
others. During Hurricane Katrina, the NCS issued over 1000 new GETS 
cards and over 40,000 GETS calls were made in the ensuring recovery 
period.
    The Wireless Priority Service (WPS) program established a wireless 
counterpart of GETS, providing priority treatment for calls made during 
periods of wireless network congestion by personnel with NS/EP 
missions, such as those experienced on September<star>, 01. The need 
for this program was recognized after 9/11 because many Federal, State 
and local Government and industry leaders utilize wireless as a primary 
means of mobile communications. During Hurricane Katrina, the NCS 
enabled over 4,000 cellular phones with WPS capability.
    The Telecommunications Service Priority (TSP) program establishes a 
regulatory, administrative and operational framework for restoring and 
provisioning of priority communications services. Through this program, 
the FCC authorizes and requires service vendors to give priority to 
restoration and provision of service to those with TSP assignments. TSP 
is distinct from GETS and WPS, which provide priority for individual 
calls over the network in an emergency. During Hurricane Katrina, the 
NCS completed more than 1500 TSP assignments. Restoration of these 
services supported key Federal, State, local and commercial activities, 
such as emergency response at all levels, hospitals, and the military.
    The Shared Resources High Frequency Radio Program (SHARES) provides 
a single, interagency emergency message handling system using High 
Frequency (HF) radio when other communications methods are unavailable. 
SHARES uses common radio operating and message formatting procedures 
and more than 250 designated frequencies. Participation in SHARES is 
open to all Federal departments and agencies and their designated 
affiliates on a voluntary basis. More than 90 Federal, State, and 
industry organizations currently contribute resources. The use of 
SHARES was an overwhelming success within the first few days of the 
aftermath of Hurricane Katrina. The NCS coordinated participation by 
431 SHARES stations. Some of the accomplishments of SHARES include:
        <bullet> Assisted local Governments and Federal entities with 
        search and rescue missions for over 100 missing people in the 
        affected area by relaying critical information regarding those 
        persons to the appropriate agency.
        <bullet> Relayed critical logistical and operational 
        information from FEMA and Atlanta's EOC into the Mississippi 
        and Louisiana EOC's.
        <bullet> Coordinated with National Aeronautics and Space 
        Administration's (NASA's) Disaster Assistance and Rescue Teams, 
        Communications Group, assisting them in their preparations for 
        deployment to Stennis Space Center.
        <bullet> Provided frequency coordination with Department of 
        Energy, FCC, Military Affiliate Radio System, the U.S. Navy, 
        FEMA, Civil Air Patrol, Amateur Radio Emergency Services 
        (ARES)/Radio Amateur Civil Emergency Service (RACES), Louisiana 
        EOC's and Mississippi EOC's.
        <bullet> Coordinated inter-communications between SHARES and 
        ARES/RACES emergency networks.
        <bullet> Established contact with deployed Navy ships USS 
        Truman and USS Bataan which were detailed to New Orleans to 
        assist with the Katrina disaster.
        <bullet> Relayed health and welfare message traffic between 
        volunteer agencies in Georgia and the National Red Cross 
        Headquarters in Washington, D.C.
    The Alerting and Coordination Network (ACN) coordinates 
communications restoration efforts among service providers when the 
public service network is inoperable or congested. ACN membership 
includes major communications companies and certain Federal agencies. 
Operating independently of the public switched network, the ACN 
supports the NCC-Telecom Information Sharing and Analysis Center (ISAC) 
24 hours a day, 7 days a week during both emergency and normal 
conditions. ACN was not utilized during Katrina.
    Now I will detail many NCS's critical actions before and during 
Hurricane Katrina.

Pre-landfall Preparation:
    Hurricane Katrina made its second landfall (Gulf Coast) on August 
29, 2005. As of August 28, 2005, the NCS' preparations for Hurricane 
Katrina included:
        <bullet> Heightened the alert status of the NCC's 24 hour Watch 
        which provides monitoring and reporting capabilities
        <bullet> 24 hour Emergency Operations Teams support on stand-by
        <bullet> National and regional ESF 2 staffing structure for 
        standing up on short notice. GSA and DoD provided personnel to 
        staff ESF-2
        <bullet> Issued TSP assignments, GETS cards, and WPS procedures
        <bullet> SHARES activated
        <bullet> GETS and WPS user support on 24 hour alert
        <bullet> Activated National Response Coordinating Center ESF 2 
        desk at the FEMA Headquarters to provide level 1 (24x7) support 
        (effective August 27, 2005, at 7 am Eastern Standard Time 
        (EST))
        <bullet> Began staffing Region IV, Atlanta, Georgia, Regional 
        Response Coordinating Center
        <bullet> ESF 2 at Region VI, Denton, Texas, activated on August 
        28, 2005, at 7 am EST
        <bullet> NCC Watch providing 24/7 monitoring and reporting 
        capability
        <bullet> Industry/Government staging of mobile communications
        <bullet> SHARES contacted local High Frequency organizations in 
        Louisiana, Mississippi, Texas, and Alabama and conducted a 
        teleconference with Nationwide Emergency Communications Service 
        controllers
        <bullet> Conducted analysis of critical communications assets 
        in the projected impact area
    All impacted communications companies moved Emergency Response 
teams and equipment to the region, established communication bridges 
among carriers, activated damage assessment teams, and Bell South 
opened its Operations Center to all carriers for coordination purposes.
    Industry and Government participated in joint conference calls, 
which were conducted daily through the NCC. Communications companies 
performed assessments from Hurricane Katrina's Florida landfall and 
continued with preparations for Hurricane Katrina's second landfall. As 
of August 28, 2005, the NCS/NCC coordinated with communication 
companies the following preparations:
        <bullet> Moving company personnel to safety
        <bullet> Rerouting of traffic loads away from projected impact 
        areas
        <bullet> Movement of Emergency Response Teams into staging 
        areas
        <bullet> Identification of over 427 Cell on Wheels (COWs) and 
        Cell on Light Trucks (COLTS) to be deployed into damaged areas 
        to meet initial cellular communication requirements while the 
        infrastructure is being restored
        <bullet> Identification of communication vans, satellite 
        packages, and pre-deployment of MCI and AT&T mobile 
        communications vans that could be contracted by the Government 
        if needed
        <bullet> Coordinating with fuel and equipment suppliers
        <bullet> Deployment and staging of generators
        <bullet> Identification of 250+ satellite handsets that could 
        be deployed in the event of major cellular system damage
        <bullet> Coordination for satellite capacity
        <bullet> Requesting relief from Federal and State reporting and 
        service requirements due to evacuation of personnel from call 
        centers, service centers, and other operations such as remote 
        monitoring and control

    III. RESPONSE:
    From Monday August 29, 2005 the day of landfall on the Gulf Coast, 
through the levee breech and the following days, the NCS engaged in 
many round-the-clock actions. In addition to exercising the priority 
programs discussed, the NCS' NCC played numerous coordination and 
facilitation roles. Specifically, the NCS activated SHARES on August 
29th and worked to coordinate with United States Northern Command 
(USNORTHCOM) to identify and deploy communication assets. At this 
point, communications service providers were awaiting physical access 
to facilities to evaluate their networks and reporting was sparse 
during the first 24 hours of the storm.
    Katrina caused unprecedented damage to the communications 
infrastructure. In the telecommunications sector, More than three 
million phone customers were out of service. For the first time in 
history, switching centers were out of operation due to water damage. 
Numerous 9-1-1 call centers were down and up to 2000 cellular towers 
were out of service shutting down telecommunications networks 
throughout the area. In addition, significant damage had been inflicted 
on first responder Land Mobile Radio (LMR) communications.
    As of September 2, 2005, all systems were in place for the ESF 2 
elements to receive communications requests from the affected region, 
both through the JFOs and independent requests. In the ensuing period, 
the ESF-2 elements on location:
        <bullet> Identified and dispatched satellite vans to various 
        locations affected by the hurricane, including New Orleans City 
        Hall, State Police in Baton Rouge, the Mobile Army Surgical 
        Hospital (MASH) at New Orleans Airport, and to the National 
        Guard in Jefferson Parish
        <bullet> Dispatched mobile capabilities, such as COLTs, to 
        provide communication to the JFO and offer cellular service to 
        the Louisiana State Emergency Operations Center (EOC)
        <bullet> Delivered mobile communications trucks to the State 
        EOC and to staging areas for Federal and Industry responders
        <bullet> Delivered satellite handsets to emergency responders 
        in Louisiana, Mississippi and Alabama
        <bullet> Initiated contacts with State EOCs to determine 
        communication requirements
        <bullet> Identified the requirement to replace the destroyed 
        LMR infrastructure in eight parishes in Louisiana. Worked with 
        FEMA to initiate contract to provide replacement system
        <bullet> Designed and installed new E-911 System in Plaquemines 
        Parish
        <bullet> Within 48 hours of Hurricane Rita making landfall, 
        arranged for installation of a 106 foot, portable, Emergency 
        Response Tower to Jefferson Parish to replace the destroyed 400 
        foot permanent tower supporting first responders in Jefferson 
        Parish
        <bullet> Deployed cellular capabilities were deployed to 
        Cameron Parish to replace communications devastated by 
        Hurricane Rita
    At the NCS's NCC in Washington, industry identified three 
priorities to the NCS: fuel, security and access. Throughout the 
crisis, industry repeatedly made clear that in order to maintain 
existing communications, to assess damage to its communications 
infrastructure and to begin to make repairs and deploy alternative 
services, it needed to get fuel to locations, to have security to 
protect personnel, communications infrastructure, staging areas and 
fuel convoys, and to have access to locations in need of repairs.
    The NCC assisted industry by coordinating security forces and 
requirements between industry and Government to protect repair teams, 
communications sites, and staging areas. In addition, in a limited 
number of circumstances, the NCC arranged to provide communications 
carriers and broadcast companies with generators where the power was 
out, fuel for generators, and power outage maps. The NCS recognizes the 
interdependencies on other infrastructures and has established a 
relationship with the Energy Information Sharing Analysis Center 
through the response to previous disasters. Close coordination was 
achieved through the hurricane response period.
    Highlights of the NCS's NCC activities include:
        <bullet> NCC conducted twice daily conference calls with 
        government and industry representatives. Participants included 
        representatives from communications companies (wireline, 
        wireless, satellite) and from numerous federal entities located 
        in the field and in Washington, including NCS, GSA, FEMA. These 
        calls facilitated information sharing and coordination of 
        response actions.
        <bullet> Facilitated the provisioning of the United States 
        Marshals Service and Federal Bureau of Investigation (FBI) 
        personnel to protect the most important communications center 
        in New Orleans. These law enforcement officers provided 
        security for employees who felt threatened by individuals 
        outside the facility. The U.S. Marshals and FBI escorted 
        employees and fuel trucks to and from the facility as well as 
        providing facility security.
        <bullet> Provided the local carrier with detailed satellite 
        images which the carrier had been unable to access until the 
        NCC stepped in to help. This enabled the carrier to prioritize 
        its restoration efforts by providing information on which areas 
        were still totally flooded.
        <bullet> Successfully Coordinated offers for assistance of 
        communications resources and assets (such as satellite phones) 
        from local, national and international sources
        <bullet> Facilitated fuel delivery for Broadcasters in the 
        region
        <bullet> Maintained full time liaison with DoD's U.S. Northern 
        Command for coordinating communication support to effected 
        area.
        <bullet> Provided commercial emergency mobile assets and 
        coordinated military assets to support local authorities 
        following Hurricane Rita
        <bullet> Provided status reports to DHS and White House

IV. CONCLUSION:
Next Steps:
    The extent of the destruction and damage to communications 
infrastructure and services caused by Hurricane Katrina greatly 
exceeded any other disaster previously encountered by the NCS. A 
hurricane of the historical magnitude of Hurricane Katrina stressed the 
processes and procedures of the NCS and required ESF 2 to perform 
functions, such as providing an interim Land Mobile Radio system to 8 
parishes, which has never been done before.
    Currently, the NCS is fully engaged in assisting with the 
restoration efforts in the wake of Hurricanes Katrina and Rita, and now 
Wilma. In an ongoing effort to improve communications, the NCS is 
currently examining its actions regarding Hurricane Katrina, 
identifying issues and lessons learned and developing recommendations. 
We are fully committed to incorporating lessons learned into future 
plans, procedures, and capabilities.
    Some of the areas that will be considered are: standardized and 
pre-approved emergency credentials to vital communications and other 
key infrastructure providers, examination of mechanisms for improved 
facilitation of industry assessment and repair efforts, consideration 
of increased level of exercises with industry, state and local 
government and improved acquisition of and coordination for emergency 
communication capabilities.
    The NCS will continue to work with industry and government to 
improve the perseverance and restorability of the nation's 
communications network

    Mr. Reichert. The Chair now recognizes Mr. Kenneth Moran, 
director of the Office of Homeland Security on the Federal 
Communications Commissions Enforcement Bureau to testify.

                   STATEMENT OF KENNETH MORAN

    Mr. Moran. Good morning, Mr. Chairman, and distinguished 
members of the subcommittee. My name is Ken Moran, and I serve 
as the director of the Federal Communications Commissions 
Office of Homeland Security. In that role, I am primarily 
responsible for consolidating support for the homeland security 
and emergency preparedness responsibilities of the Commission. 
Today, I will describe the Commission's efforts to assist 
consumers, the communications industry and other Federal 
agencies in response to the extensive damage inflicted by the 
recent hurricanes.
    As we all know, Hurricanes Katrina, Rita and Wilma 
devastated large areas of the southeastern United States. 
People lost their homes, their businesses, and even their 
lives. Our hearts go out to all of those who are now struggling 
to put their lives back together. The chairman and ranking 
member described the destruction of these hurricanes very well, 
the destruction inflicted upon the communications 
infrastructure, so I won't repeat it now. But I will say that 
the resulting communications breakdowns made it extremely 
difficult for millions of people to communicate with their 
families and friends or to receive news and emergency 
information.
    Also, emergency workers and public safety officials had 
great difficulty communicating. While no communications network 
could be expected to remain fully operational in the face of a 
direct hit from hurricanes of this magnitude, that fact was of 
little consolation to the people on the ground. Fortunately, 
the communications companies began to restore services almost 
immediately. They have overcome significant obstacles including 
flooding, lack of power, dwindling fuel resources for 
generators and security problems to rebuild, reconnect and 
broadcast. These extraordinary efforts were performed by 
industry employees, many of whom had suffered their own 
personal losses yet still continued to work to restore services 
to all.
    The Commission has devoted significant time and resources 
to enable first responders to communicate and to facilitate 
restoration of communications services. On August 30, Chairman 
Martin established an internal task force to coordinate the 
FCC's hurricane response efforts, which fall into three 
categories, regulatory relief, industry outreach and 
coordination with other Federal agencies. To date, nearly 200 
FCC employees have assisted this effort. The Commission has 
taken a number of steps to facilitate the resumption of 
communication services and to authorize the use of temporary 
services for use by disaster relief personnel and evacuees. At 
the outset, the Commission notified the communications 
providers that it would provide streamlined treatment for 
requests for special temporary authority or STAs to aid them in 
resuming and maintaining operations in areas impacted by the 
hurricanes. The FCC has granted more than 90 STA requests and 
more than 100 temporary frequency authorizations for emergency 
workers and communications companies to provide wireless and 
broadcast service in the areas affected, and also in the 
shelters around the country.
    The Commission has granted the vast majority of these 
requests within 24 hours. In addition, the Commission has 
released several public notices and quickly adopted orders to 
provide temporary relief. The Commission works closely with the 
National Communications System and FEMA in accordance with the 
national response plan. We are continuously reaching out to 
communications companies serving the affected areas, wire line 
and wireless broadcasters, cable and satellite providers to 
assess the companies status and determine what they need to 
continue or resume operations.
    Mr. Moran. The FCC continues to gather critical information 
about resources that communications providers need to restore 
and maintain service in the affected areas and provides this 
information to the NCS and FEMA who are responsible for 
ensuring that the priority needs are met. The Commission also 
is responsible for providing information on communications 
companies' operational status for incorporation into the 
governmentwide situation reports.
    In addition, the FCC works closely with industry to 
identify resources for use by disaster response personnel. We 
provide this information to the NCS and facilitate industry 
communications with other Federal officials. We also work on a 
wide range of providers, including those who offer satellite, 
wireless, wireless Internet access and WIFI services to 
identify those providers capable of offering facilities and 
services that can assist those in the affected area.
    In the aftermath of these hurricanes the Commission has 
devoted significant time and resourced to enable first 
responders to communicate. For example, the Commission granted 
STAs to allow first responders to use through-the-wall imaging 
equipment to locate hurricane victims and to help emergency 
response organizations to facilitate communications on the 
ground. These recent disasters are also prompting the 
Commission to reassess steps that have been taken to address 
interoperability issues. These steps consist mainly of efforts 
to provide additional spectrum to public safety entities, to 
promote technological development to enhance interoperability, 
and to provide technical expertise on input to interagency 
efforts.
    In addition, Chairman Martin has announced his intention to 
establish an independent expert panel to review the impact of 
Hurricane Katrina on the public communications infrastructure. 
The panel will be composed of public safety and communications 
industry representatives and will make recommendations for 
approved disaster preparedness, network reliability, and 
communications among first responders.
    In conclusion, the Commission is continuing to work with 
other Federal agencies and the industry to determine what 
additional actions can be taken to assist in disaster relief 
and restoration efforts. We will also continue to reach out and 
respond to many consumers affected by these tragedies and we 
stand ready to work with the Congress and our colleagues at the 
Federal, State, and local levels to do whatever we can do to 
help with disaster relief and restoration.
    I would be pleased to answer your questions. Thank you.
    [The statement of Mr. Moran follows:]

                 Prepared Statement of Kenneth P. Moran

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. My name is Ken Moran and I serve as the Director of the 
Federal Communications Commission's Office of Homeland Security. In 
that role, I am primarily responsible for consolidating support for the 
homeland security and emergency preparedness responsibilities of the 
Commission.
    In my testimony today, I will describe some of the damage wrought 
by Hurricanes Katrina and Rita to the communications industry and the 
Commission's efforts to assist consumers, the industries the agency 
regulates, and other Federal Agencies during this difficult crisis. 
Finally, I will also address the Commission's efforts to ensure public 
safety operability during catastrophic events such as the recent 
hurricanes.
    As we all know, Hurricane Katrina and Hurricane Rita devastated the 
Gulf Coast. People lost their homes, their businesses, and even their 
lives. Hurricane Wilma has also brought devastation to the people of 
Florida. Our hearts go out to all of those who are now struggling with 
putting their lives back together.
    The destruction that Hurricane Katrina caused to the facilities of 
communications companies, and therefore the services upon which 
citizens rely, was extraordinary. More than three million customer 
telephone lines were knocked down in the Louisiana, Mississippi, and 
Alabama area. Significant damage was inflicted both on the wireline 
switching centers that route calls and on the lines used to connect 
buildings and customers to the network. Thirty-eight 9-1-1 call centers 
went down. Local wireless networks also sustained considerable damage 
with more than one thousand cell sites out of service. Over 20 million 
telephone calls did not go through the day after the hurricane. While 
we were not able to contact every station in the immediate aftermath, 
we estimate that approximately 100 broadcast stations were knocked off 
the air. Hundreds of thousands of cable customers lost service.
    Hurricane Rita, which struck parts of Texas and Louisiana, also 
caused significant damage. It produced extensive flooding throughout 
the affected area, including many of the same parishes in Louisiana 
still working to recover from Hurricane Katrina. The hurricane left 
more than 80,000 consumers without telephone service, damaged more than 
20 telephone company switches, and knocked out more than 250 cell sites 
in the vicinity of Beaumont, Texas and Lake Charles, Louisiana. In 
addition, at least five broadcasters went off the air in the affected 
area as a result of the hurricane's wind and flooding damage.
    As a result of the communications breakdown, it was extremely 
difficult for hundreds of thousands of people to receive news and 
emergency information and to communicate with their loved ones. 
Emergency workers and public safety officials had difficulty 
coordinating. It was at times like these that we were reminded of the 
importance of being able to communicate. While no communications 
network could be expected to remain fully operational in the face of a 
direct hit from a category four or five hurricane, that fact was little 
consolation to the people on the ground.
    Fortunately, the work to restore communications services began 
almost immediately. While considerable problems remain, the companies 
in the region have made meaningful progress. They have overcome 
significant obstacles--including flooding, lack of power, dwindling 
fuel resources for generators, and security--to rebuild, reconnect and 
broadcast. After Hurricane Katrina, three radio stations in New Orleans 
continued to operate throughout the storm, and a fourth resumed 
operations within several hours of losing power. Wireline carriers were 
able to begin restoring service within five days, with significant 
improvement accomplished within a week, and wireless carriers began to 
restore service within two days, with substantial improvement by the 
first weekend. These extraordinary efforts were performed by employees, 
many of whom had suffered their own personal losses, yet still 
continued to work to restore services to all.

COMMISSION ACTIONS
    The Commission has devoted significant time and resources to enable 
first responders to communicate and to facilitate companies' ability to 
quickly restore services in the region. On August 30th, Chairman Martin 
established an internal Task Force consisting of senior executives and 
management from within the Commission. Chairman Martin directed the 
Task Force to coordinate the FCC's hurricane response efforts, which 
fall into two categories: (1) regulatory relief; and (2) industry 
outreach and coordination with other federal agencies. The Task Force 
has been working on these assignments continuously since August 30th. 
To date, nearly 200 FCC employees have assisted in this effort.

    Regulatory Relief
    The Commission has taken a number of steps to facilitate the 
resumption of communications services in the affected areas and to 
authorize the use of temporary communications services for use by 
disaster relief personnel and evacuees in shelters.
    At the start of the disaster, the Commission notified 
communications providers that it would provide streamlined treatment 
for requests for special temporary authority (STA) in order to aid them 
in resuming and maintaining operations in areas impacted by Hurricane 
Katrina. The FCC has granted more than 90 STA requests and more than 
100 temporary frequency authorizations for emergency workers, 
organizations and companies to provide wireless and broadcast service 
in the affected areas and shelters around the country. The Commission 
has granted each of these requests within 4 hours of receipt of all 
necessary information from the requestor, except in instances requiring 
coordination with other government agencies. Even in those cases, 
requests have been granted within 24 hours. In addition, the Commission 
has released several public notices and quickly adopted orders to 
provide temporary relief.

    Industry Outreach and Coordination with Other Federal Agencies
    The Commission has been working closely with industry as well as 
the Federal Emergency Management Agency (FEMA) and the National 
Communications System (NCS) pursuant to the procedures established in 
the National Response Plan. The Commission is continuously reaching out 
to communications companies serving the affected area--wireline and 
wireless network providers, broadcasters, cable providers, satellite 
providers--and to trade associations for these providers to assess the 
companies' status and determine what they need to resume operations. 
These efforts include Commission staff contacting each of the broadcast 
stations in the affected region.
    The FCC provides the critical information about resources that 
communications providers need to restore and maintain service in the 
affected area to FEMA and NCS, who are responsible for ensuring that 
priority needs are met. For instance, the Commission identified 
wireline central offices and radio and television broadcasters that 
could be operational if provided fuel to power on-site generators. The 
agency updates FEMA and NCS daily on evolving needs.
    The Commission also is responsible for providing the National 
Coordinating Center (NCC) with information on communications companies' 
operational status for incorporation into the government--wide 
situation reports. Again, the agency gathers and submits this data 
daily.
    In addition, the FCC has worked closely with the communications 
industry to help identify resources for use by disaster response 
personnel. The agency both transmits this information to NCC and 
facilitates industry's communication with other federal officials. For 
example, Commission staff coordinated discussions between FEMA and a 
major Direct Broadcast Satellite (DBS) provider to set up free 
televisions at disaster relief facilities and to provide a nationwide 
channel for disaster emergency services programming. Staff also worked 
with a wide range of providers--including those offering competitive 
facilities-based telecommunications, satellite, wireless, wireless 
internet access and Wi-Fi services--to identify those providers capable 
of offering facilities and services that can assist those in the 
affected area.
    Finally, the Commission has been coordinating with the Interagency 
Coordinating Council on Individuals with Disabilities, organized by the 
Department of Homeland Security, to ensure that the needs of the 
disability community are addressed in the coordinated federal relief 
efforts.

INTEROPERABILITY
    In the aftermath of Hurricanes Katrina and Rita, the Commission has 
devoted significant time and resources to enable first responders to 
communicate and to help facilitate companies' ability to quickly 
restore communications services in the region. For example, the 
Commission granted special temporary authorities (STAs) to allow first 
responders to use ``through-the-wall'' imaging equipment to locate 
hurricane victims and to emergency response organizations to facilitate 
communications on the ground.
    These recent disasters are also prompting the Commission to 
reassess the steps that have been taken to address interoperability in 
recent years. These steps have consisted mainly of efforts (1) to 
provide additional spectrum to public safety entities; (2) to promote 
technological developments that enhance interoperability; and (3) to 
provide technical expertise and input on a number of interagency 
efforts.
    The Commission has designated approximately 97 MHz of spectrum from 
ten different bands for public safety use throughout the country. 
Public safety entities also actively use spectrum-based services in 
other spectrum bands. In addition, the Commission has designated 
certain channels in these public safety bands specifically for 
interoperability. By ``interoperability,'' we generally mean radio 
communications between public safety agencies (usually of different 
jurisdictions) in furtherance of both day-to-day and emergency 
operations. Frequencies designated for interoperability include 2.6 MHz 
of the 700 MHz band, 5 channels in the 800 MHz band, 5 channels in the 
150 MHz band (VHF band), and 4 channels in the 450 MHz band (UHF band). 
A public safety entity may use these designated frequencies only if it 
uses equipment that permits intersystem interoperability. In response 
to requests from public safety entities, the Commission designated 50 
MHz of spectrum at 4.9 GHz for public safety users. The 4.9 GHz band 
rules also foster interoperability by providing a regulatory framework 
where traditional public safety entities can pursue strategic 
partnerships with others, including critical infrastructure entities, 
as necessary for the completion of their mission. And, last year the 
Commission released its decision regarding public safety interference 
in the 800 MHz band, which will not only promote effective and robust 
public safety communications but ultimately, will make additional 
spectrum available for public safety use.
        Other steps the Commission has taken to facilitate 
        interoperability include:
        <bullet> To facilitate interoperability on a regional basis, 
        the Commission reallocated television spectrum in the New York 
        City area for public safety use to promote interoperability 
        among area public safety entities.
        <bullet> The Commission has developed policies and rules to 
        promote the sharing of spectrum. For example, the Commission's 
        rules permit the shared use of radio stations where licensees 
        may share their facilities on a non-profit, cost-shared basis 
        with other public safety organizations, including Federal 
        government entities, as end users.
        <bullet> The Commission modified its rules to eliminate 
        regulatory barriers to help speed introduction of software 
        defined radio (SDR) technology. Radios traditionally have been 
        built with unalterable hardware components that perform 
        specific functions. SDR technology allows radios to cover 
        multiple frequency bands and signal formats by simply sending 
        different software instructions to a microprocessor instead of 
        using additional (frequently bulky and heavy) parts. Although 
        this technology is not currently available for public safety 
        use, we are aware that public safety entities and industry are 
        actively exploring these applications.
    Chairman Martin has announced his intention to establish an 
independent expert panel to review the impact of Hurricane Katrina on 
the communications infrastructure. The panel will be composed of public 
safety and communications industry representatives and will make 
recommendations to the Commission regarding ways to improve disaster 
preparedness, network reliability and communications among first 
responders such as police, fire fighters and emergency medical 
personnel.

CONCLUSION
    The damage wrought by the recent hurricanes is tremendous and its 
effects will be felt for months and possibly years to come. The 
Commission is continuing to work with other Federal agencies and the 
communications industry to determine what additional actions can be 
taken to assist in the disaster relief and restoration effort. The 
Commission also will continue its important work in reaching out, and 
responding to, consumers affected by this tragedy.
    The Commission stands ready to work with Congress, our colleagues 
at federal, state, and local agencies, and the American public to do 
whatever we can to help with the disaster relief and restoration 
efforts. I would be pleased to respond to your questions.

    Mr. Reichert. The Chair now recognizes Doctor Linton Wells, 
II, Acting Assistant Secretary of Networks and Information 
Integration, Chief Information Officer of the United States 
Department of Defense.

                 STATEMENT OF LINTON WELLS, II

    Mr. Wells. Chairman Reichert, thank you very much, Ranking 
Member Pascrell, and members of the committee.
    The lessons learned, if you will, from the Federal, State, 
and local responses to Katrina parallel the lessons that DOD 
has learned in the series of humanitarian assistance, disaster 
relief operations around the globe, and also the stabilization 
and reconstruction operations in Afghanistan and Iraq. All of 
these have involved complex situations involving large 
populations without basic access to services, including 
communications and often power.
    I will focus on four lessons out of these. The first is 
communications command and control and the sensors to provide 
situational awareness are not techie adjuncts, if you will, to 
major muscle movements like the delivery of food, water, and 
shelter, but in fact the critical enablers of everything else 
that will happen. We need to be able to move these equipments 
contemporaneously with the rescue efforts and actually before 
the restoration of things like water, power, and shelter. In 
addition, power needs to be included. Self-powered units for 
erectable towers and equipment need to be included in these 
first deployments.
    The second point is that our military has to be able to 
reach out beyond the boundaries of the traditional military 
networks in order to communicate, collaborate, in some cases 
translate and engage with nontraditional partners such as State 
and local first responders, the commercial partners, and 
overseas people like nongovernmental organizations. This is 
important because so much of the information as well as the 
recipients of the services reside outside these government 
boundaries. In this area commercial technology is very 
important. And it has been true for both domestic and for 
international situations.
    The third piece that is important is the social networks we 
have to have in order to make this work, the personal and 
professional relationships to interact in really three 
different spheres: We have the military-to-military command and 
control sphere; we have got the military to the State and local 
first responders, and we have got the military to the 
commercial partners. All of these are quite different 
environments.
    Working with police and firemen has been very important. 
DOD has been trying to learn from the way they handle incident 
responses, and in this we greatly appreciate the Chairman and 
Ranking Member's work with the police and fire over the years. 
I would also say for the Department of Defense in the last 
year, the Chairman of the Joint Chiefs of Staff has introduced 
a new topic, a doctrinal topic called integrated operations. We 
have long been working towards joint operations among services 
and combined operations among the militaries of several 
nations. This year the Chairman introduced the importance of 
working in integrated operations with nontraditional partners 
such as State and local first responders, with indigenous 
security services overseas, with nongovernmental organizations, 
et cetera.
    The fourth lesson then is that information sharing is 
absolutely critical. Communications is one piece but the goal 
ultimately is to share information. The Defense Department and 
the Intelligence Community have a common set of data standards 
that has stood us in very good stead in terms of sharing 
information in, say, counterterrorist domains. It would be a 
great help if the rest of the government were able to adopt 
these sorts of standards to allow for the sharing of 
information not just in counterterrorist situations but also in 
the source of situations we saw in Katrina and Rita.
    So I look forward to your questions, Mr. Chairman. Thank 
you for the opportunity to be here today.
    Mr. Reichert. Thank you, Doctor Wells.
    [The statement of Mr. Wells follows:]

               Prepared Statement of Dr. Linton Wells, II

    Chairman Reichert, Ranking Member Pascrell, distinguished members 
of the Committee, thank you for inviting me here today to discuss the 
subject of ensuring operability during catastrophic events. As the 
acting Assistant Secretary of Defense for Networks and Information 
Integration (NII)/Chief Information Officer (CIO) of the Department of 
Defense, I am responsible for enabling the warfighting, business and 
intelligence processes of an enterprise by ensuring agility, 
situational awareness, and effective corporate decision-making through 
the use of information and communications technology (ICT).
    Warfare in the 21st Century, the core business process of the 
Defense Department, must be net-centric, meaning so well connected that 
well-trained professionals can self-synchronize their behavior with 
many others across vast distances, with devastating effect. Victory is 
dependent on discovering the enemy, accessing data, making decisions, 
and executing operations more rapidly and effectively than your 
adversary. Let me begin by saying that the communications and command 
and control (C2) lessons we are learning from the Federal, state, 
local, and commercial responses to Hurricane Katrina appear consistent 
with the lessons DoD has learned in the conduct of Humanitarian 
Assistance and Disaster Relief (HADR) missions across the globe. 
Moreover, these lessons appear consistent with those lessons learned 
during stabilization and reconstruction operations in Afghanistan and 
Iraq. All of these situations involve high-levels of complexity, large 
populations, and the destruction of basic information and 
communications infrastructure. There is also a commonality of purpose 
that must be organized, coordinated, deconflicted, and executed as 
efficiently and effectively as possible, using multiple sources of 
support--some of them totally unfamiliar with one another.
    Communications--particularly wireless communications--are the 
critical enabler of all other functions in any disaster relief 
operation, along with the sensors to let you know what's happening and 
share the information and the ability to command and control those 
functions and information. These are all mission-critical functions. 
Hurricane Katrina was no exception. Without effective communications, 
every operation will suffer debilitating inefficiencies, some leading 
to ineffectiveness. My experience indicates that the first priority in 
both international and domestic situations is the establishment or 
restoration of wireless communications. Establishing or reestablishing 
communications has become a first-order requirement that must occur 
contemporaneously with rescue operations. Communication and 
information, when used appropriately, synergize the rescue response. It 
is imperative to take advantage of everyday technology to rapidly 
coordinate the rescue of our citizens across the entire spectrum of the 
crisis until its conclusion.
    By now, the members of this Subcommittee recognize that the 
Department of Defense and civilian responders from across the spectrum 
of Federal, state, and local authorities have matured into the post-
September 11 world with different lexicons. The mission of fighting and 
winning this nation's wars is very different from responding to 
catastrophes spread across vast distances, regardless of their cause. 
Different lexicons are to be expected. America has a long tradition of 
carefully separating military and civilian functions, especially in our 
homeland. My experience, however, tells me that when Mr. Canterbury of 
the Fraternal Order of Police testified before this Subcommittee on 
September 29, his reference to command and control is the same concept 
that General Pace, Chairman of the Joint Chiefs of Staff, refers to 
using the same words. The ability to lead a complex organized operation 
requires situational awareness and the ability to communicate with 
everyone participating in that operation. The planning process 
establishes the social networks and procedures that give people the 
agility to adapt and overcome the unanticipated.

    CATEGORIZING CHANGE
    From my experiences since September 11, I have come to use a three-
part construct to describe the actions necessary to ensure operability 
in catastrophic events internationally and domestically. These 
categories include: 1) technical capacity development; 2) ``social 
network'' development through planning, interaction, and collaboration; 
and 3) doctrinal changes and training.

    TECHNICAL CAPACITY DEVELOPMENT
    During the past 10 years, the U.S. military has honed its C2 skills 
in multiple deployments involving a mixture of war-fighting, civil 
affairs, humanitarian assistance, disaster relief and stabilization and 
reconstruction operations. The 1990's saw such deployments in Haiti and 
the Balkans, and they have only accelerated since the 9-11 attacks, 
with deployments in Afghanistan and Iraq. More recently, U.S. forces 
have been instrumental in providing key elements of the initial 
humanitarian responses to global disasters, including the tsunami in 
Southeast Asia, the recent earthquake in Pakistan and the subject of 
today's hearing, Hurricane Katrina. All of these deployments have 
highlighted the increased need in the Department to communicate, 
collaborate, translate, and cooperate outside the closed networks 
required for military operations. Unlike the military, which always 
travels with its own power and infrastructure, civilian responders 
encountered command and control issues at the operational and tactical 
levels due to the devastation of the civilian-response infrastructure. 
Technology designed to operate without stable power sources in the 
austere environments of developing countries, is available today. 
Working with industry, these innovations can help to increase the 
survivability of tactical civil responder systems.
    As stated earlier, when forces assigned to U.S. Northern Command 
and National Guard units deployed with military communications, they 
were once again ill-equipped to communicate with civilian responders 
struggling with a lack of communications infrastructure. Therefore, the 
Federal government must expand its capability to rapidly deploy 
commercial-off-the-shelf networks making use of satellite links, 
wireless local area networks (LANs), laptop computers and ``plug-and-
play'' equipment to bridge the gap created by a devastated civil 
infrastructure.
    The lack of interoperability of first responders' communication 
equipment also hindered the effectiveness of operations. This problem 
won't be resolved by everyone buying the same product. It will likely 
be solved through collaborative efforts involving spectrum allocation 
and agreement both within industry and in the first responder community 
on common data standards. In the near term, we must continue to 
encourage the development and purchase of technology that bridges these 
disparate systems.
    In the area of technical standards, one of the critical waveforms 
that DoD and DHS have agreed upon as essential to become interoperable 
under DHS's SAFECOM Program has been the Association of Public Safety 
Communications Officials (APCO) Project 25 (APCO-25) standard. The 
primary objectives of APCO Project 25 are to: (1) enhance functionality 
of equipment and capabilities focused on public safety needs, (2) 
ensure competition among multiple vendors through an open systems 
architecture approach and (3) achieve effective, efficient and reliable 
intra-agency and inter-agency communications. Our two agencies have 
mutually agreed that this is the best approach at this point in time. 
Although DoD is making efforts to adopt and implement APCO-25, SAFECOM 
has had success in influencing the public first responder community to 
implement this standard.
    From a DoD perspective, we believe the APCO-25 implementation is an 
important step to solve some of the current interoperability problems 
in the first responder community. As an example, DoD is complying with 
National Telecommunications and Information Administration (NTIA) 
narrowbanding mandate by implementing APCO-25 in DoD Land Mobile Radios 
(LMR). In addition, DoD is examining the development of an APCO-25 
waveform that will work in the Joint Tactical Radio System so when our 
military deploys to support homeland security missions, no matter what 
they are, we will have an immediate communications capability with 
First Responders.

    SOCIAL NETWORK DEVELOPMENT
    Much of the work that needs to be done at the strategic level in 
the wake of what we have learned revolves around social networks rather 
than any lack of technology. Hurricane Katrina showed us that a key 
source of the problem stemmed from a lack of familiarity with each 
other's operating practices--what DoD calls tactics, techniques, and 
procedures. What was lacking was familiarity with the National Response 
Plan, a shared understanding of how NORTHCOM was to support that plan, 
and experience gained through exercises between US military and 
Federal, state, and local responders. A nationally focused effort to 
generate a truly collaborative information environment is feasible 
through coordinating the resolution of legal, policy and technical 
issues across all agencies and all levels of government. Ideally, there 
would be full interoperability among systems for command and control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (known together as ``C4ISR''). In addition, there needs 
to be broader, more fully articulated planning for multiple kinds of 
disaster events, ranging from natural disasters such as Hurricane 
Katrina up through a nuclear strike. Command and control, which is a 
social process augmented by communications and information, must extend 
to all appropriate locations, from a local sheriff's car to the White 
House. Moreover, we must exercise and train in a common environment to 
be better prepared to respond to such crises in the future.
    Multiple efforts have addressed, or are addressing, segments of the 
need for a national response capability. These include:
    <bullet> National Security Telecommunications and Information 
Systems--Developing plans and programs, including the development of 
architectures, to ensure security on National Security Systems;
    <bullet> Continuity Communications Enterprise Architecture--
Architecture to enable the Federal Executive Branch to execute mission-
essential functions under all circumstances;
    <bullet> Intelligence Community Architecture--Architecture to 
enable the intelligence community to share information;
    We must vigorously support collaborative planning and 
interoperability at all levels of government, ensuring that decision-
makers have unencumbered access to the best available information and 
enabling interoperable command and control operations. The Federal 
government must have command and control capabilities, supporting 
facilities, and infrastructure to ensure uninterrupted connectivity and 
coordination in support of essential functions in accordance with 
constitutional authorities. Our goal should be to provide assured 
services across government by:
    <bullet> Making information available on a network that is 
dependable and trusted,
    <bullet> Providing the available and appropriate bandwidth, 
frequency and computing capabilities within the spectrum management 
process,
    <bullet> Assuring appropriate and effective collaboration 
capabilities and other performance support tools,
    <bullet> Supporting secure and assured information sharing, without 
disadvantaging the responder lacking a security clearance,
    <bullet> Continuously refreshing the information content of a 
shared situational awareness capability,
    <bullet> Promoting infrastructure transparency (to the user),
    <bullet> Assuring independence of information and data for 
consumers and producers,
    <bullet> Considering that all users of information are also 
suppliers (and therefore encouraging parties to contribute data rather 
than just downloading it),
    <bullet> Supporting information transactions that are asynchronous 
in time and place,
    <bullet> Supporting the disadvantaged user with intermittent access 
to limited data services, and
    <bullet> Applying federal data tagging standards and information 
assurance policies.
    I have learned a great deal about ``social networks'' in the 
international context in the past three years. It is critical to 
develop purposely professional and personal links among experts and 
practitioners from multiple fields and sectors in humanitarian relief, 
disaster relief, and stabilization and reconstruction operations. These 
ties, built up over time and through enormous effort, are absolutely 
vital to organizing an effective response when catastrophic disasters 
occur. Unless working arrangements to communicate and share information 
among all of these types of entities can be formulated, the success of 
any operation can be compromised, with results that can prolong or even 
exacerbate the effects of the disaster. Extensive planning and training 
is essential before the crisis.

    DOCTRINAL CHANGES AND TRAINING
    In the area of doctrinal change in the international context, DoD 
is embracing the concept of ``integrated operations.'' This reflects a 
new battlespace management concept that will transform our military 
competencies from joint operations to operations that are fully 
integrated and coordinated with those of the military's partners in an 
operation. In the case of humanitarian assistance activities, these 
partners may include other U.S. agencies, allied militaries and 
governments, nongovernmental organizations, local populations, and 
private industry. And to maximize our effectiveness, DoD will integrate 
from planning to execution and then on to the transition to a restored 
local authority. Employing a coherent strategy that uses all 
instruments of the state in concert will ensure success in relief 
operations over the long term.
    This doctrine also better prepares DoD to fulfill domestic response 
missions, bringing together civilian responders and military planners 
to synergize their efforts. Within the United States, DoD has conducted 
many scenario-driven exercises designed to prepare the military to 
support humanitarian assistance across a broad range of natural 
disasters--and also with regard to protecting potential terrorist 
target sites. Exercises and training opportunities between the U.S. 
military and civilian responders are critical to achieving this level 
of integration.
    Thank you for the opportunity to address the Subcommittee.

    Mr. Reichert. The Chair will recognize the gentleman from 
Texas, Mr. McCaul. He is apparently a busy man. He has two 
other appointments he needs to be at, so we are going to allow 
him the courtesy to ask the first questions.
    Mr. McCaul. I appreciate that, Mr. Chairman.
    We also after the events of Katrina and to some extent 
Rita, we weren't interoperable, we weren't operable. All the 
communication went down. And when that happens, when Rita 
occurred--I am from Texas--they actually gave me a satellite 
phone. I had never used one of those before. But when all the 
communications go down, we really have to rely on satellite 
technology and satellite communications.
    My question to the panel as a whole, but more directed at 
Doctor Fonash and Boyd with the Department of Homeland 
Security, does your NCS--or does DHS in a broader scale have a 
program to preposition this satellite capacity and equipment in 
the regions of the Nation where we do have these critical 
threats either from terrorist attacks or from Mother Nature so 
that we can respond better to the needs of the first responders 
in a more efficient manner?
    Dr. Boyd. The Office of State and Local Government 
Coordination Preparedness and a number of others are working to 
try to identify what needs to be placed in the field. I don't 
work directly with the program that would place those phones in 
the field but I am sure we can get answers for you on exactly 
what the status of that is.
    Mr. McCaul. Obviously the problem is if it is a terrorist 
attack, or in this case a hurricane, and all the communications 
go down, it greatly impairs our ability to respond. So that is 
why the satellites and that technology and prepositioning those 
assets is so important.
    Doctor Fonash.
    Mr. Fonash. Sir, what I would like to say is, first of all, 
that we do have satellite vans. The industry has satellite vans 
and DOD has satellite vans and what they do is they don't 
deploy them in the vicinity because they are concerned about 
damage; what we do is we deploy them outside the area of 
potential impact. As soon as the disruption is over with, we 
bring those vans in and we restore communications at that point 
in time.
    FEMA has MERS vans, if you are familiar with MERS vans. We 
arrange the mission assignments through FEMA, through the 
National Response Plan. We arrange for vans to come in from the 
commercial carriers, AT&T and MCI to establish satellite 
communications. Actually satellite dishes provide much more 
than handheld satellites but also give you full telephone 
capabilities and things like that.
    One of the things that we are looking at that we did for 
Hurricane Wilma as a lessons-learned from Rita and Katrina was 
that we actually pre-identified satellite capabilities with the 
companies. We went to Global Star, one of the biggest providers 
of satellite phones, and identified how many phones they had. 
We also worked with the State and local emergency operations 
centers, and one of the recommendations we made to them is that 
they should have some satellite phones on hand.
    But also a caveat, again, and I think Doctor Boyd mentioned 
this before, satellite phones are limited. The battery life is 
limited. You cannot get satellite capability in an urban 
environment because the antennas will not work. Again, you have 
to look at it as a set of tools that you can have. Satellite 
phones are just one of the tools you have to look at using.
    Dr. Boyd. If I could add one key point that you also have 
to consider. The satellite phones and satellite capabilities 
provide critical elements of the communications piece for the 
command level. Getting to the individual rescue officer, the 
guy who needs to be coordinated by the local chief of police or 
the fire chief, Twin Towers is probably an ideal example of 
that, where there were literally tens of thousands of State and 
local officials, officers who are directly involved in the 
operation, satellite phones tend not to be practical for them.
    So there are two levels of communications that you need to 
address: that command-and-control level where satellites become 
a crucial piece, and then that level that goes out to the 
individual officer in the field where satellite phones are 
generally not as practical, partly because they are hard to use 
and partly because bandwidth to support that number of 
responders is not always available.
    Mr. McCaul. If I understand the satellite capabilities, 
they are better at the command and control level.
    Dr. Boyd. I think to connect commanders to commanders. It 
is crucial at the national level to allow that common operating 
picture to be transmitted up the line so that at the national 
command level they can make decisions across the larger command 
levels. But there is that other level that you don't want to 
leave out, which is the guy who is going into the attic and 
saving the drowning victim, and that level of communications is 
not terribly well supported by satellites.
    Mr. McCaul. One follow-up. Are you coordinating with the 
Department of Defense and the FCC on these issues at all with 
respect to--
    Dr. Boyd. I think we are probably going to give the same 
answer; yes, we deal with them in a variety of ways. In SAFECOM 
interoperability we work very closely both with the National 
Guard Bureau, with the Joint Tactical Radio Aystem, with the 
J6. I am part of the senior advisory group that deals with the 
J6. When they look at how communications that deal with local 
domestic authorities, particularly in base defense kinds of 
communications requirements, I am sure you will get the same 
answer.
    Mr. McCaul. Is that your understanding, Doctor Wells?
    Dr. Wells. The Department of Homeland Security has come to 
us on a number of occasions; for example, work on the homeland 
security network, SAFECOM, a variety of interoperability 
efforts. We have an assistant secretary for homeland defense 
who works very closely with the interoperability office at DHS.
    Mr. McCaul. Lastly, let us take Katrina, for instance. When 
was this technology deployed? You mentioned the mobile units. 
At what point in time was that deployed to Louisiana, for 
instance?
    Mr. Fonash. The initial deployment of those mobile units 
occurred on September 1st.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you. The gentleman from New Jersey, Mr. 
Pascrell, is recognized for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman. My first question is 
to Mr. Moran. You said in your testimony that, if I may quote 
you, sir, these recent disasters are also prompting the 
Commission, the FCC, to reassess the steps that have been taken 
to address interoperability in recent years. These steps have 
consisted mainly of the following efforts: Number one, to 
provide additional spectrum to public safety entities; number 
two, to promote technological developments that enhance 
interoperability; and number three, to provide technical 
expertise and input on a number of interagency efforts.
    Mr. Moran, we have been discussing additional spectrum for 
over a decade. Over a decade. It takes a hurricane, it takes a 
disaster to bring us to our senses. I didn't detect any sense 
of urgency in your presentation, and I wish that you could 
correct me, sir.
    Mr. Moran. Well, there definitely was a sense of urgency at 
the Commission with regard to Hurricanes Katrina, Rita, and 
Wilma. The Commission, as I said, over 200 people at the 
Commission actually have worked on those matters. We have 
people that we put onsite in the ESF2 process that Doctor 
Fonash talked about earlier; we have people today in Louisiana, 
we have people in Florida, and we had people in Texas when the 
Rita situation was going on.
    Mr. Pascrell. Mr. Moran, could you explain to our audience 
and the panel what is spectrum?
    Mr. Moran. What is spectrum?
    Mr. Pascrell. Yeah.
    Mr. Moran. The portion of electromagnetic--
    Mr. Pascrell. In English.
    Mr. Moran. It is the portion of the radio and--radio--it is 
radio spectrum that variousSec. hat TV stations use to 
broadcast TV, radio stations use to do radio and public safety 
communications and cellular operators use to communicate.
    Mr. Pascrell. Why is it so important in the discussion in 
terms of communication for our first responders? What does 
spectrum have to do with first responders which we have been 
discussing for a decade?
    Mr. Moran. Because the amount of spectrum you have 
determines how much communications you have available.
    Mr. Pascrell. Okay. So in other words, it is up to the FCC 
to expand spectrum so that first responders have a greater 
ability and opportunity to communicate in the first place. Is 
that an exaggeration, what I just said?
    Mr. Moran. I think that is correct.
    Mr. Pascrell. Why haven't we done that? Why hasn't the FCC 
stepped up to the place in this matter?
    Mr. Moran. The Commission has stepped up to the plate.
    Mr. Pascrell. How?
    Mr. Moran. The Commission made more spectrum available.
    Mr. Pascrell. After emergencies happen. After emergencies 
happen. This is what your testimony says: that after the fact 
you have--in fact, what you said was that we have allowed 
consideration after the hurricane hits, in this example. What 
we do is we short-circuit the bureaucracy and we extend those 
stays so we can have exceptions. That is what you say in your 
testimony.
    Mr. Moran. We have done all those things.
    Mr. Pascrell. What else have you done before the hurricane?
    Mr. Moran. Prior to the hurricane the Commission made 
available 24 megahertz of spectrum in theSec. 
    Mr. Pascrell. That is for the hurricane.
    Mr. Moran. Prior to the hurricane.
    Mr. Pascrell. Was that done 2 years ago, 3 years ago?
    Mr. Moran. It is actually in a transition right now that is 
in part related to the spectrum will be fully usable with the 
digital TV transition.
    Mr. Pascrell. One final question along those lines, Mr. 
Moran. What has been done by the FCC in the last 5 years, 6 
years, 7 years, to expand spectrum for first responders, when 
we know that is the most critical question facing us in 
communications? You tell us.
    Mr. Moran. We made the 24 megahertz available in the 700 
megahertz range and we have made I think 50 megahertz available 
I believe in the--it is much higher, I think it is in the 3.5 
gigahertz range for more data. So we made a lot of spectrum 
available for the public safety community. We have done that in 
the last several years.
    Mr. Pascrell. It is a good thing Congressman Curt Weldon 
isn't here. It is a good thing. I am mild compared to that. But 
it is interesting, your responses about trying to make us 
believe--me believe that this has been a priority on the FCC 
list. Long before 9/11 FCC dropped the ball, was not paying 
attention to our first responders, and maybe you are listening 
with one ear now. I don't know.
    Can I have one more question, Mr. Chairman?
    Mr. Reichert. Yes, sir.
    Mr. Pascrell. To Mr. Fonash.
    You stated in your presentation that you provided frequency 
coordination with the Department of Energy, FCC, the military 
affiliate radio programs. I believe that was you.
    Mr. Fonash. No, sir, I did not.
    Mr. Pascrell. You said on page number 4.
    Mr. Fonash. You're talking about my written testimony?
    Mr. Pascrell. That is exactly what I am talking about. On 
page number 4 you said that some of the accomplishments of the 
SHARES program we are referring to include--and I am referring 
to the fourth one down--provided frequency coordination with 
the Department of Energy, FCC, military affiliate radio system, 
the U.S. Navy, FEMA, civil air patrol, amateur radio, et 
cetera, et cetera. You said that, right?
    Mr. Fonash. Yes, sir, I did; in my written testimony.
    Mr. Pascrell. Now I want to ask you this question. I want 
to know what are the specific problems you encountered.
    Mr. Fonash. Sir, what that is referring to is SHARES, which 
is an HF radio network that enables people to communicate. What 
you have to do is agree on certain frequencies that people will 
communicate on. And what that is referring to is what we did to 
coordinate with all these different agencies the frequency they 
would use on the HF.
    Mr. Pascrell. My question is what problems did you 
encounter in acting out that coordination?
    Mr. Fonash. Sir, the only problems was making contact. We 
published a common frequency that everybody would have. Once we 
published the common frequency, everybody would sign onto that 
common frequency. After that, we would get agreement by working 
with the different organizations on what were the frequency 
assignments for use of the HF radio during Katrina.
    Mr. Pascrell. This is what you consider to be coordination 
of all of these entities dealing with communication?
    Mr. Fonash. Yes, in reagards to dealing with the HF radio 
and the SHARES network.
    Mr. Pascrell. I have no further questions.
    Mr. Reichert. The Chair will recognize himself for about 5 
minutes or so.
    I want to just mention there has been some progress made 
and I think most members of the audience and the panel may also 
be aware, some of the members here of the committee, this 
afternoon at 3 p.m., the Energy and Commerce Committee will 
mark the Digital Television Transition Act of 2005. This bill 
will set a firm deadline for the transition of television 
technology from analog to digital, which will free up some 
spectrum space for first responders.
    So there is some progress being made, but I have the same 
passion that Mr. Pascrell and others on this committee have and 
I agree with Mr. Pascrell, too. It is fortunate that Mr. Weldon 
isn't here because he does get very, very passionate, as some 
of you may have been present for some of his questioning.
    I want to go back to 1972. That may seem a little bit odd, 
but I started as a police officer on the street back in 1972. 
So when you talk about we have been discussing interoperability 
or operability for the last 10 years, it is not exactly true; 
it has been highlighted for the last 10 years, but it has been 
a problem for 30, 35, and 40 years.
    I am just going to relay, I think pictures or stories draw 
a very clear picture of the problem because it is still 
happening today. In the mid-seventies I responded to a call as 
a deputy on the street in South King County. It was a young boy 
with a gun who had shot up the neighborhood. And when I 
arrived, he took aim at me and fired a shot.
    He disappeared into the neighborhood and I took up a 
perimeter along with other police officers and I had a portable 
radio with me. A neighbor ran across the street from the 
opposite side of the road and said, hey, my neighbor just 
called me on the telephone. First line of communication. Hard-
line telephone to the neighbor across the street. The man with 
the gun is behind my home, laying on his belly with the gun 
cradled in his arm, and he's ready to shoot some police 
officers who are walking his way with a K-9 unit who are in 
search of him.
    I tried to get on my portable radio to let my supervisors 
know that I knew where the man with the gun was but I couldn't 
get through. It would not work. So I knew I had to take action, 
so I ran across the street and slid alongside the house and I 
saw the young boy with the gun laying in a prone position, 
aiming at the police officers that were approaching. I still 
couldn't get on the radio. No communication after all. Back 
then we had one frequency for the entire county in King County. 
It was not operable.
    I had to run across the yard, threw the radio to the ground 
and wrestled the rifle away from the young man. Fortunately he 
was not hurt, the officers were not shot, and neither was I. 
But it is an example of a problem that is still happening today 
and we have to take--when you talk about immediate action, we 
can talk about Department of Homeland Security, we can talk 
about all the acronyms that you have used to describe the 
different systems, but what we are talking about, as Mr. 
Pascrell said, is life and death.
    So my first question is we do have to have this spectrum, 
we have to have additional wavelengths to work from. What do 
you see--and anyone on the panel, please answer--what do you 
see as the biggest vulnerability, the biggest challenge, the 
biggest hurdle that we need to overcome in making this work for 
our first responders whose lives are put on the line each and 
every day?
    Dr. Boyd. Interestingly, I think the first problem is not a 
technical one, and let me make clear that we think release of 
the 24 megahertz is essential. They need that spectrum 
desperately. This will more than double what they have. Even 
once we get that, what is going to be required above all else 
is a willingness among public safety organizations to build 
cooperative agreements, build cooperative governments so they 
can put the agreements in place.
    What we have discovered is that when we can work with 
communities together to bring together all of the players, and 
once we can get agreement on that, a lot of the basic 
technologies that will allow communications at least that 
command level--not the ideal interoperability we would like to 
get to--but that command level that is required to be able to 
pass the kind of message you talked about in your scenario is 
available now.
    What we have to do, however, is to have the kind of 
leadership and commitment that will allow that to happen, and 
that is why most of what SAFECOM has been involved in is 
working directly with the public safety community to develop 
the kinds of tools that communities, collections of communities 
can use to put together that kind of governance and that kind 
of agreement.
    Mr. Moran. Yes, sir. I agree with what Doctor Boyd said 
there. More spectrum has been made available, more will be 
freed up when the DTV transition completes, and the Commission 
is looking now to see if additional spectrum is needed. And I 
believe we owe a report to the Congress in December in which we 
will make some recommendations in that regard. But I will say 
the Chairman has said to the Congress before that if additional 
spectrum is needed for public safety, the Commission--he will 
do what he can to have the Commission make it available.
    Mr. Reichert. Again, to point out, this is really a very 
urgent issue. Now we are talking about December, then January. 
I still go back to 1972.
    Mr. Moran. Absolutely. And I think it has been alluded to a 
little bit and I think Doctor Boyd mentioned it perhaps in his 
oral statement, but I think you said something like, I forget, 
how many thousands of--all of these public safety 
communications systems are owned and operated by State and 
local jurisdictions and it will be very expensive to get them 
into the 21st century to do a number of things, including 
interoperability. So a lot of these are aging systems and it is 
not going to be cheap. And there has to be leadership and there 
has to be commitment to get to where we need to get to and 
spectrum is part of it, and the Commission is committed to make 
sure that that works, but there is a lot more and a lot of 
investment that will have to be made.
    Mr. Reichert. In 1997 when I was first appointed sheriff in 
Seattle, we moved--began to move to 800 megahertz, and in that 
process it was a mess. It still is a problem today in trying to 
communicate across that county of 2,200 square miles. And some 
of the competing interests, we know, as we drive by cell towers 
and we all of a sudden lose total communication on an 800 
megahertz system, brand-new system that just falls apart when 
you drive by a cell tower. What are the competing interests 
that is prohibiting the advancement of our progress in this 
area to help first responders?
    Mr. Moran. Along with what you just mentioned about 
interference issues, the Commission--we do have--we are working 
on a plan to eliminate some of the interference problems I 
believe in the 800 megahertz area, so we are working that. We 
know that there had been issues. The Commission in the last 
year and a half, I think, has worked out a system that will 
over the next couple of years resolve a lot of those issues, 
but I still submit the big thing that is out there is it is 
going to be very expensive, and these things are owned and 
operated by State and local governments and it is going to be 
hard to do it. Even when spectrum is available, even when the 
systems are available, even when we know how to do the 
operating systems and we have the standards, it is going to be 
expensive.
    Mr. Reichert. Okay. Thank you. Chair recognizes the other 
gentleman from Washington.
    Mr. Dicks. Thank you, Mr. Chairman, and congratulations on 
your new assignment as subcommittee chairman.
    In looking at what happened down with the military, another 
lesson Pentagon planners will be studying after Katrina 
communications problems severely hampered the military's 
ability to talk to first responders. In some cases the military 
was reduced to using runners to physically carry messages 
between units and first responders. Part of the problem was 
that the storm destroyed some of the first responders' radio 
equipment, another factor was desertion in the New Orleans 
Police Department, which meant some people who were needed to 
operate radio equipment were gone, still other problems was 
many radios simply could not talk to each other.
    Now, I don't know if the Chairman knows about this, but we 
have a company out in Seattle called--we have a number of 
companies in Seattle, by the way, but this one is called CoCo 
Communications, that has developed a system that enables people 
using different kinds of communications systems to share voice 
and data signals with each other. It does this by capturing the 
signals from each system, performing necessary translation 
through software routines, and then transmitting the signals on 
the appropriate channel. They refer to their technology as 
cryptographic mesh protocol.
    Doctor Boyd, you should know about this because you have 
awarded a grant I think through your--to Love Field in Dallas 
to use this. There was a story in the Washington Post about a 
Prince William school district awarded a contract to CoCo. 
There's one at Franklin High School in Seattle. The Washington 
Port article said this: William County School System will be 
the first in the country to deploy at several schools a new 
technology that will offer administrators, teachers, police and 
rescue authorities a better way to communicate during 
emergencies, officials announced yesterday. The technology 
developed by a Seattle-based CoCo Communications Corp and 
funded with a $246,000 grant from U.S. Department of Justice 
will enable school and public safety workers to share 
information, even if one person is using a cell phone and 
another a radio.
    In the next several weeks, two Prince William Schools, a 
middle and elementary school, will be equipped with a software 
program that seamlessly links different devices on a single 
network. Only one other school in the country in Seattle is 
using the technology, according to Mike Berman, a CoCo 
spokesman. The technology has implications for the whole 
Nations' security, Lucy S. Beauchamp, the Prince William school 
board chairman, said at a news conference yesterday. She 
pointed to the September 11th terrorist attacks, the Washington 
area sniper shootings, and hurricane Katrina as crises during 
which this kind of communications made possible by the CoCo 
software would have increased public safety. With this 
software, teachers trapped in a school with their students 
would use their cell phones or handheld computers to talk with 
police officers outside with walkie talkies. Officials would 
also be able to download images from the school or school bus 
video surveillance cameras onto their own devices, and instead 
of having to wait for police to call during a terrorism threat, 
school officials would be able to get urgent news to teachers 
who might be locked inside schools--inside classrooms with 
students. Schools are isolated. They have their own radios and 
telephones but they are not as integral part of our traditional 
first responder community, said Peter Ericson, vice present of 
CoCo. We're hoping to spread the technology to other schools 
and build what it calls the National School Protection Network.
    Now, would this kind of technology help, Doctor Boyd? Is 
this the kind of thing we need to allow these disparate forms 
of communication to interact through this software? Do you know 
anything about this?
    Dr. Boyd. Yes, I have met with CoCo Communications on a 
number of occasions, and in fact it addresses an important 
piece of the communications issue, because what it does is to 
provide what in the parlance of the communities is sometimes 
called an overlay, which allows the exchange of data across 
disparate systems. What it does not do, and it is important to 
understand these boundaries as well, it doesn't replace the 
radio itself, and so the radio still has to be able to make 
that RF communication with another radio. The answer is we 
think this is a very powerful--
    Mr. Dicks. Is this a problem with Motorola? Is this a 
Motorola problem? I think we have heard about 80 percent of 
these radios are Motorola, and they have been unwilling or 
unable to fix these systems.
    Dr. Boyd. Well, I can't speak for Motorola.
    Mr. Dicks. You are the expert now.
    Dr. Boyd. I understand, but I can't speak for Motorola.
    Mr. Dicks. You can speak for the Federal Government.
    Dr. Boyd. It is true, and I don't want to address this just 
to Motorola, because I think we need to talk about the industry 
at large and not just the RF pieces but communications pieces 
as well, and that is that there is an inevitable tendency--and 
we find this in the cellular industry as well and all those 
manufacturers--to build proprietary components which make it 
extraordinarily difficult, especially in an emergency, to tie 
these things together. It also tends to tie you to a particular 
manufacturer's equipment when you move forward.
    So a major part of what we are trying to do is to create 
open architecture, nonproprietary standards, so that we can--
when local public safety agencies come out with their requests 
for proposals, require that they be nonproprietary. One of the 
nice parts about the CoCo application is that it doesn't matter 
what the underlying radio is. There are a couple of other 
software applications we also think are promising in the same 
way. It makes sure that the underlying equipment doesn't 
matter. As long as you make the two radios talk together, you 
can lay this on top and be able to communicate across 
proprietary systems. But it is entirely true that there are 
some issues that we are trying very hard to address to open up 
some of the proprietary elements of the infrastructure and it 
is entirely true that cause is part of our problem.
    Mr. Dicks. Doctor Wells, we have been trying to get the 
National Guard to look at this system. I have talked to General 
Blum about this. Has the Defense Department looked at this 
technology at all?
    Dr. Wells. We have. But let me State for the record where 
we are with the National Guard. I have looked at CoCo in 
conjunction with Iraq, when we were looking at that. I need to 
get up to speed with what is happening on CoCo. I would second 
what Doctor Boyd said about the importance of open standards 
and open architecture. We are trying to move away from 
proprietary systems in DOD to get to maximum interoperability 
and that is really important. I will get back to you on where 
we stand on CoCo.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you. The Chair will recognize the 
gentlelady from New York, Mrs. Lowey.
    Mrs. Lowey. I personally want to thank the Chairman for 
your powerful presentation. And to all the panel I want to 
thank you. However, we all understand the complexity of this. 
We have been talking about it for years, you have been aware of 
the challenge for much longer because of your own personal 
experiences.
    I want to make it clear to all of us the reason we keep 
pressing is that this didn't appear overnight. Nine years ago, 
the final report of the Federal Public Safety Wireless Advisory 
Committee concluded, quote, unless immediate measures are taken 
to promote interoperability, public safety agencies will not be 
able to adequately discharge their obligation to protect life 
and property in a safe, efficient, and cost-effective manner.
    In 2004 a GAO study on project SAFECOM began by stating in 
its 2-year history it has made very limited progress in 
addressing its objective. Now the study is a year and a half 
old--and we appreciate your presentation, Doctor Boyd--however, 
we understand that the agency still has problems and a project 
to establish a nationwide baseline for interoperability has 
been undertaken by SAFECOM. However, the assessment was to have 
been undertaken in 2004, it was delayed until 2005. It is now 
promised for the summer of 2006. And in addition, the President 
promised to cut overall funding for the Office of 
Interoperability and Compatibility in the fiscal year 06 budget 
request by 11.5 million, or 35 percent.
    Now, given the fact that the President has proposed to 
slash the budget of your office that is supposed to oversee 
emergency communications systems, the poor performance of 
existing programs, the fact that recent emergencies have 
highlighted the major problems that still exist, I think we 
have all good reason to question the commitment of the 
administration to get serious about this.
    In fact, Doctor Boyd, I understand that given your huge 
responsibility, you have four people working in your office, 
and we understand that this is a huge challenge, but I can't 
help wonder how serious we are about this. Are we going to be 
sitting here a couple years from now talking about how this is 
a serious problem? In fact, in legislation I introduced, it 
included a $5 billion over 5 years appropriation, because my 
concern is--and you talk about problems with Motorola and how 
important standards are--this goes back to our questions to 
Secretary Ridge, to establish standards.
    If the Federal Government has real dollars to give out, 
then you could command that standards are going to be followed 
and that you are providing the dollars so you have the 
responsibility to demand results. You have laid out a very 
important program, but I would still like to ask you why it is 
taking so long. What can we do to move the process?
    I am not going to get back to the spectrum issue because 
that has been adequately discussed, but even if--we know from 
the Baltimore experience, there have been articles on that--
even if you have a system that is being developed by a 
particular community, if there are not Federal standards moved 
in place quickly, if you are not providing the money and 
requiring State and local governments to comply, I worry about 
where we are going to be next year and the year after. Doctor 
Boyd.
    Dr. Boyd. Okay. Well, that is a lot of territory to cover 
but let me try. In response to the first issue, I first got 
involved in interoperability back in 1993, and the first 
project I tried to undertake was in San Diego County where we 
were able to put together a fairly primitive but effective 
interoperability solution. Took about 30 days to put the 
technology in place. It took 2 years to get all the players in 
the county to agree they wanted to play as part of it. So we 
have been working at this for some time, and understand that.
    In 2003 when the Department of Homeland Security stood up, 
a decision was made then, and I was asked if I would come from 
Justice to Homeland Security to take over SAFECOM. At that 
point the first thing that I felt that we needed to do was to 
go back to those first responders and say what exactly is it 
that SAFECOM needs to do to meet your needs? What is it you 
have to have from us?
    Out of that, we built a series of things, the first 
statement of requirements, we built common grant guidance where 
we in an interesting sort of way went to the folks who were 
going to be the recipients of the grants and said what it is 
you want us to require in these grants in order to make those 
things happen because we understand, first off, that while at 
the Federal level we often think we are providing humongous 
amounts of money, in fact more than 97 percent of the money 
that is spent in these communications systems is their money.
    So our question was how do we fit this, how do we make this 
work the way you want? In working with them we created common 
grant guidance, which now for the first time at executive 
direction is included in every grant program touching on 
interoperability in the United States. We put it into place the 
first time in 2003, we had to do some adapting because we were 
following after the appropriation and had to fit what the law 
said for the COPS program and FEMA and those providing those 
grants.
    For the first time, in 2001 SAFECOM was elevated as an 
executive level--a Presidential Management Initiative. Before 
then it had never been that. In fact, the way I funded 
interoperability attempts before that was to try to scrape off 
things from other programs where I could put that into place. 
Congresswoman Jane Harman will be familiar with that because we 
worked together in some of that in the Los Angeles arena as we 
tried to do those things. It wasn't until this became a 
Presidential Management Initiative that it began to arrive at 
that level.
    In the current President's budget, as I understand it, we 
are budgeted for 28 for the office. We have been just like the 
Department of Homeland Security, the rest of the Department. We 
have been building a Department, a very large and complex 
Department over some time. I will also tell you the public 
safety community was in fact so happy with the way we have put 
things together, that in April of 04 they issued a joint 
statement which was signed by the chiefs of police, the fire 
chiefs, the major city chiefs, the major county sheriffs, 
League of Cities, Council of Mayors, Association of Public 
Safety Communications Officers, the National Public Safety 
Telecommunication Council, all of those expressing strong 
support for the way the program was put together, and it 
genuinely represented their interests. So that is what we have 
been working to do.
    One of the things we have also been addressing is that 24 
megahertz of spectrum to be released, and one thing that I 
think may be unclear that everybody needs to understand is one 
of the reasons the 24 megahertz has not yet come available is 
because legislation requires--the law requires that before the 
24 megahertz can be released to public safety, at least 85 
percent of each of the affected areas has to be capable of 
receiving and using high definition television. The consequence 
of that was a chicken-and-egg problem. You had broadcasters 
uninterested in building high definition television 
capabilities where nobody had high definition television 
receivers, and nobody interested in buying high definition 
television receivers because you didn't have the transmitters. 
So it is also important to understand that there is a 
legislative impediment in releasing the 24 megahertz.
    Mr. Reichert. The Chair likes to thank the gentlelady.
    Mrs. Lowey. Thank you very much. I appreciate the amount of 
time, and perhaps you can follow up because according to our 
information, the committee gave you marginally more than the 
President's request. So I think we still wonder, if this is a 
top priority--and it certainly seemed to be with Katrina--why 
there was a recommendation to cut the budget by 35 percent. So 
I thank you very much for your skillful presentation. I look 
forward to working with my colleagues on this.
    Mr. Reichert. Thank you. The Chair now recognizes the 
gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I just want to clarify a 
few points here and ask a few questions. It is my understanding 
that between the State homeland security grant program, UASI, 
EDPP, for 2004 there have been $2 billion available, a third of 
which have been drawn down for interoperability, not to mention 
the fact there are probably literally billions of dollars stuck 
in a pipeline, dollars that for whatever reasons have not been 
drawn down by the States that can be used for interoperability. 
And I also want to point out for the record too, there are 
certainly Department of Justice funds, COPS program, that is 
available for interoperability. That is an important issue and 
I support funding for it. There is a lot of money stuck in the 
pipeline that needs to be drawn down and a lot of reasons it 
hasn't been, but I want to put that out there for the record.
    Question to Doctor Boyd, actually. How do you see the role 
of the World Wide Web in development of emergency 
communications systems and a dissemination of information by 
the government to the public during times of disaster, man-made 
or otherwise?
    Dr. Boyd. Two pieces to that. One is obviously the Web 
provides some really useful capabilities because it tends to be 
very robust and it is a thoroughly redundant system. As you 
begin to lose pieces of it, it still works. So the Internet 
provides some real opportunities. What we have to make sure we 
do, though, is as we capitalize on and plan on and make use of 
the Internet is that when you have a major catastrophic 
failure, you also tend to use the public switch telephone 
network, for example, on which most of the Internet rides, 
essential as a backbone piece. So if you have access to the 
Internet, it offers powerful, powerful capabilities. The IP 
protocol, which some people sometimes confuse with the 
Internet, is the same kind of protocol that is used on the 
Internet but is in fact a protocol which offers some powerful 
capabilities in the wireless world independent of the Internet 
because it provides real possibilities for some serious 
interoperability.
    Mr. Dent. Thank you. The next question is we have heard 
that amateur radio is effective and a highly regarded means of 
ensuring operability during disaster situations. Does any 
Federal agency direct the coordination of the use of amateur 
radio during disasters; and, if not, should amateur radio be 
coordinated on a State or Federal or regional basis?
    Mr. Fonash. That's my answer. We have a program called 
SHARES which utilizes the HF radio. SHARES is a network of 
networks. It can include DOD, the amateur radio-operator, and, 
State and local operators. And so when SHARES comes up, all 
those networks come up. For example, in the Louisiana EOC, we 
actually had an amateur operator working SHARES in the State 
EOC. So, yes, we actually do use that. One of the basic tools 
that we use is HF amateur radio. There are limitations with the 
HF amateur radio, so it is one of the tools you have to use, 
but the power of it is that it is totally independent of the 
public network, so if the public network goes down, you have 
that as an alternative means, but it is a limited alternative 
means and it does have problems; for example, atmospheric 
problems and limited data rates.
    Dr. Boyd. I have been a licensed amateur radio operator 
since I was about 13. It is important to understand the amateur 
radio community, in addition to this capability, also has VHF, 
UHV and SHF capabilities because they have bands throughout the 
spectrum and there are, in fact, a number of activities that 
provide training. What I would suggest, having dealt with this 
for a long time, is that it is also important if you are going 
to use this--and local agencies and a number of sheriffs 
departments, police departments use this--you have to integrate 
them early, you have to train them properly, and you have to 
make sure they understand what their boundaries and rules are 
and how they fit, and they can become a powerful capability 
because in a lot of respects they probably own more equipment 
than the public safety community does.
    Mr. Dent. My final question. I understand that the private 
sector, basically commercial communications operators rolled 
out temporary cell phone towers and distributed cell phones to 
first responders and victims of Hurricane Katrina. Was this 
coordinated by the local, State, and Federal governments, and 
are there agreements in place between the private sector and 
governmental entities to take advantage of the resources of 
private sector in such situations?
    Mr. Fonash. Again, sir, we are responsible as the lead 
agency for ESF2. One of the key tenets of that is we have 
something called the National Coordinating Center for 
Telecommunications. It actually coordinates, between State, 
local and Federal Government and industry, solutions. And so 
many of those solutions were brokered through the NCC or 
through ESF#2 functions on a local basis. So, yes, we are 
involved in those.
    Mr. Dent. Thank you. Anybody else wish to comment on that? 
Thank you, Mr. Chairman.
    Mr. Reichert. As you can tell by the buzzers and pagers 
going off, we are going to be voting soon, but we have time to 
recognize the gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Mr. Rey, I wanted to ask you about the 
communication kits that you all have given out through the 
buyer service. Tell us about those kits and what they do, how 
you deploy them, what timeline.
    Mr. Rey. Early on in the 1970s as we began to organize the 
incident command system to fight wildfires, we knew that we 
would be operating in fairly remote areas where traditional 
communication technology was nonexistent, and we also knew that 
we would be working with other Federal and State and local 
responders. So what we have done is two things. One is we have 
developed memoranda of agreement with our cooperators so we 
know how to make sure our communications systems are 
interoperable, theirs and ours. Second, we have developed a 
fire communications cache so that we can stand up an entire 
communications system with radios and repeating towers so that 
all of the responders to a particular incident are using 
similar or comparable equipment.
    Mr. Rogers. So when you say you stand up those towers, so 
if you are fighting a forest fire in a remote area that doesn't 
have any towers, you can put up temporary towers?
    Mr. Rey. That is correct.
    Mr. Rogers. What kind of timeline, how quickly?
    Mr. Rey. If we are deploying an incident command team we 
will have those established as they arrive on the scene, within 
24 hours. We also set up the same systems in New Orleans, 
providing the equipment to other responders and particularly so 
we could communicate within our own incident command structure 
with interoperability.
    Mr. Rogers. So those you sent to New Orleans, you had those 
up and running within 24 hours.
    Mr. Rey. Twenty-four hours of our arrival, yeah.
    Mr. Rogers. Excellent. You stated that the incident 
management teams managed all agency radio, phone, data 
communications in the days following the hurricane. Can you 
explain exactly what the teams did to facilitate communications 
other than what you just described?
    Mr. Rey. Pretty much what I described is it. We wanted to 
make sure that we had communications within our own incident 
command structure as well as with the other responders that we 
were serving. Our role in this case was a supporting role, but 
both from a communications standpoint as well as all of the 
other logistical functions that we were providing.
    Mr. Rogers. Thank you. That's all I have. Thank you, Mr. 
Chairman.
    Mr. Reichert. Thank you. Just one quick statement. As you 
have, I am sure, have taken in the feeling here of the 
committee, this is an important issue for us and we hope that 
you will go back to your respective work areas and assignments 
and convey our sincere and express desire to move this along at 
a quick pace.
    I want to thank all of you for being here today, for your 
valuable testimony. I want to thank the members for their 
questions. The members of the committee may have some 
additional questions for the witnesses, and we will ask that 
they submit those questions in writing. The hearing record will 
be open for 10 days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
